<html>
<title> - THE BORDER SECURITY CHALLENGE: RECENT DEVELOPMENTS AND LEGISLATIVE PROPOSALS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
  THE BORDER SECURITY CHALLENGE: RECENT DEVELOPMENTS AND LEGISLATIVE 
                               PROPOSALS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON BORDER, MARITIME,
                      AND GLOBAL COUNTERTERRORISM

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 22, 2008

                               __________

                           Serial No. 110-118

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                     U.S. GOVERNMENT PRINTING OFFICE
43-873 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012008


                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman

Loretta Sanchez, California          Peter T. King, New York
Edward J. Markey, Massachusetts      Lamar Smith, Texas
Norman D. Dicks, Washington          Christopher Shays, Connecticut
Jane Harman, California              Mark E. Souder, Indiana
Peter A. DeFazio, Oregon             Tom Davis, Virginia
Nita M. Lowey, New York              Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
Columbia                             David G. Reichert, Washington
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Donna M. Christensen, U.S. Virgin    Ginny Brown-Waite, Florida
Islands                              Gus M. Bilirakis, Florida
Bob Etheridge, North Carolina        David Davis, Tennessee
James R. Langevin, Rhode Island      Paul C. Broun, Georgia
Henry Cuellar, Texas                 Candice S. Miller, Michigan
Christopher P. Carney, Pennsylvania
Yvette D. Clarke, New York
Al Green, Texas
Ed Perlmutter, Colorado
Bill Pascrell, Jr., New Jersey

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

     SUBCOMMITTEE ON BORDER, MARITIME, AND GLOBAL COUNTERTERRORISM

                Loretta Sanchez, California, Chairwoman

Jane Harman, California              Mark E. Souder, Indiana
Zoe Lofgren, California              David G. Reichert, Washington
Sheila Jackson Lee, Texas            Michael T. McCaul, Texas
James R. Langevin, Rhode Island      Gus M. Bilirakis, Florida
Henry Cuellar, Texas                 Mike Rogers, Alabama
Al Green, Texas                      Peter T. King, New York (Ex 
Bennie G. Thompson, Mississippi (Ex  Officio)
Officio)

                         Alison Rosso, Director

                         Denise Krepp, Counsel

                       Carla Zamudio-Dolan, Clerk

        Mandy Bowers, Minority Senior Professional Staff Member

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California, and Chairwoman, Subcommittee on 
  Border, Maritime, and Global Counterterrorism..................     1
The Honorable Mark E. Souder, a Representative in Congress From 
  the State of Indiana, and Ranking Member, Subcommittee on 
  Border, Maritime, and Global Counterterrorism..................     2
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5

                               Witnesses
                                Panel I

The Honorable Silvestre Reyes, a Representative in Congress From 
  the State of Texas:
  Oral Statement.................................................     6
  Prepared Statement.............................................     7
The Honorable Brian P. Bilbray, a Representative in Congress From 
  the State of California........................................     8
The Honorable Ginny Brown-Waite, a Representative in Congress 
  From the State of Florida:
  Oral Statement.................................................    10
  Prepared Statement.............................................    11
The Honorable Gabrielle Giffords, a Representative in Congress 
  From the State of Arizona......................................    13
The Honorable Heath Shuler, a Representative in Congress From the 
  State of North Carolina:
  Oral Statement.................................................    15
  Prepared Statement.............................................    17

                                Panel II

Mr. Thomas S. Winkowski, Assistant Commissioner, Office of Field 
  Operations, U.S. Customs and Border Protection, Department of 
  Homeland Security:
  Oral Statement.................................................    37
  Prepared Statement.............................................    38
Mr. David V. Aguilar, Office of Border Patrol, U.S. Customs and 
  Border Protection, Department of Homeland Security:
  Oral Statement.................................................    43
  Prepared Statement.............................................    38
Major General Michael C. Kostelnik, (USAF) Retired, Assistant 
  Commissioner, Office of Air and Marine, U.S. Customs and Border 
  Protection, Department of Homeland Security:
  Oral Statement.................................................    44
  Prepared Statement.............................................    38


                    THE BORDER SECURITY CHALLENGE: 
             RECENT DEVELOPMENTS AND LEGISLATIVE PROPOSALS

                              ----------                              


                         Thursday, May 22, 2008

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border, Maritime, and Global 
                                          Counterterrorism,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:06 a.m., in 
Room 311, Cannon House Office Building, Hon. Loretta Sanchez 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Thompson, Sanchez, Harman, 
Lofgren, Jackson Lee, Christensen, Langevin, Cuellar, Carney, 
Green, Souder, Reichert, Bilirakis, and Rogers.
    Ms. Sanchez [presiding]. The Subcommittee on Border, 
Maritime, and Global Counterterrorism is meeting today to 
receive testimony on the border security challenge, recent 
developments and legislative proposals.
    Good morning. Today our first panel consists of a 
distinguished panel of our colleagues, Members of Congress who 
have introduced proposals to enhance and respond to America's 
border security challenge.
    Our second panel will give the subcommittee a chance to 
hear from the agency representatives who operate and direct the 
frontlines of our border security operations.
    I look forward to discussing and assessing the staffing and 
resources needed to ensure that our homeland is safe and 
secure.
    Thank you to all of our witnesses for being here today.
    This is the 11th border security hearing that this 
subcommittee has held this Congress, and we welcome the 
opportunity to continue our examination of the challenges we 
face in securing our borders and implementing real, 
comprehensive reform of the immigration system.
    In developing a strategy to secure our border and reduce 
illegal immigration, we must also create strategies and reforms 
to holistically address the important commercial, humanitarian 
and environmental issues involved in border security and 
immigration reform.
    Many of the agents on the frontlines of our border have to 
consider combinations of these issues every day, and it is our 
responsibility to make sure they have the adequate training and 
resources to do that job.
    The 110th Congress has increased border security funding by 
$2.4 billion between fiscal years 2007 and 2008, far surpassing 
the administration's proposed funding levels.
    So I look forward to hearing how the U.S. Customs and 
Border Protection is using this ample and increased funding to 
enhance our Nation's border security. I believe that these 
funds can help address some of the issues that were recently 
reported.
    For example, the U.S. Customs and Border Protection Agency 
has struggled to retain and recruit qualified officers. Also, 
in recent weeks, we have heard of overworked customs officers 
and reports of poor working conditions for these officers. This 
situation has even resulted in a picket at one of our 
countries, major ports of entry.
    In addition, a recent report from the Government 
Accountability Office expressed concerns that many ports of 
entry have serious security gaps due to low and inadequate 
staffing levels, as well as some infrastructure problems.
    There is no silver bullet, or perfect bill that will 
completely solve all of our Nation's border security 
challenges.
    Everything that happens on our Nation's borders and at our 
Nation's ports of entry is related to the overarching supply 
and demand issues that really, in my opinion, can only truly be 
addressed by having some comprehensive immigration reform.
    However, in terms of the jurisdiction of this subcommittee, 
we must provide comprehensive training and support for our 
personnel in order to ensure that they are prepared as well as 
possible to do the difficult jobs that we task them with.
    We particularly need to retain experienced Border Patrol 
agents who can help guide and provide ongoing supervision and 
training to the large number of new agents who have joined the 
Border Patrol in just the last few years.
    In addition, we must continue to invest in equipment and 
infrastructure that will act as force multipliers for the 
personnel at our ports of entry and on our borders.
    Once again I thank our witnesses for being here today.
    I would like to at this time ask unanimous consent that the 
gentleman, Mr. Carney from Pennsylvania, be authorized to sit 
for the purpose of questioning witnesses during the hearing 
today.
    So be it.
    Once again, I thank the witnesses.
    I yield to my ranking member, Mr. Souder, for his opening 
statement.
    Mr. Souder. Thank you, Madam Chair.
    Securing our Nation's borders is one of our most important 
tasks. Over the past 7 years, and especially since the creation 
of the Department of Homeland Security, a great deal has been 
done to increase resources and activities along the border and 
in the interior of the country.
    I have had the opportunity to travel a good portion with 
both borders and have seen for myself that, despite the huge 
increases in resources that have been provided over the past 
few years, there is a lot more to be done.
    One area in particular where more needs to be done is our 
national parkland located on or near the border. I am also 
looking forward to discussing CBP efforts to work with the Park 
Service to enhance security in those areas, particularly in 
Texas.
    Related to that, I am concerned with legislative proposals 
that result in limiting Border Patrol access to Forest Service 
areas of the border by declaring illegal transit routes as 
wilderness areas. Not only would that degrade the wilderness 
area, but it would severely restrict our ability to stop 
illegal activities.
    We cannot afford to back down or scale back our efforts 
along the border. We need to move forward with getting agents 
into the field and not limiting their actions. We need to 
complete fencing projects and find technology that will 
actually work for the Secure Border Initiative.
    We need to make sure that we eliminate invasive species 
like chorizo cane and salt cedar that block the ability to see 
the illegal activities. We need to maintain the catch-and-
return policy, and not revert back to releasing illegal aliens.
    Additionally, more needs to be done on our interior 
enforcement programs, especially related to cooperation with 
State and local law enforcement and reforming our immigration 
court system.
    There are initiatives we need to be moving forward with, 
rather than granting, mass amnesty and repeating the mistakes 
of the past.
    As important as I believe it is for this Congress to pass 
legislation to provide tools and authorities to the Department 
of Homeland Security to gain operational control over the 
border, it is better to do no legislation than bad legislation.
    I would like to thank our colleagues from the House, who 
have volunteered their time to provide some insight into 
existing legislative proposals to address border security and 
interior enforcement challenges.
    I hope this hearing is the first step in moving forward 
with bipartisan border security legislation. To that end, I 
would like to point out several other bills that have been 
introduced by Republican members of the Homeland Security 
Committee and ask the Chair to commit to considering these 
proposals, should the committee move forward with any border 
security legislation.
    H.R. 2954, Secure Border First Act of 2007, is sponsored by 
Ranking Member Peter King. Resolution 499, expressing the sense 
of the House that U.S. immigration laws should be enforced, is 
sponsored by Representative Lamar Smith, a senior member of 
this committee.
    H.R. 3916, to provide for the next generation of border 
security technology, is sponsored by Representative Ralph Hall 
and Representative Michael McCaul of this committee.
    H.R. 2561, Fast and Secure Travel at the Borders Act of 
2007, is sponsored by Representative Dent of this committee. 
H.R. 3496, Border Patrol and Contractor Accountability Act of 
2007, is sponsored by Representative Ginny Brown-Waite of this 
committee.
    H.R. 2490, to conduct a pilot for the mobile biometric 
identification in the maritime environment, is sponsored by 
Congressman Bilirakis of this committee, as is H.R. 4517, the 
Visa Security Improvement Act.
    I think it is important that we work how to move 
legislation forward, and not get it bottlenecked in the 
committee. I look forward to working with you on this issue and 
hope that we can give fair consideration to the variety of 
bills discussed here today and others that have been referred 
to by this committee, especially those by committee members.
    One additional issue that I believe the committee urgently 
needs to consider, and I hope is discussed during this hearing, 
is the current plan to end the deployment of the National Guard 
along the southwest border, referred to as Operation Jumpstart, 
in July.
    I am very concerned from visits on the border and talking 
with the Border Patrol directly that we will not have the 
Border Patrol agents in place to cover the missions, and this 
is the wrong time to open any new weaknesses along the border, 
when we are in fact trying to brag about what we have done. To 
back down and retreat--this is not the time to do that.
    Thank you for yielding the time. I yield back any 
remaining.
    Ms. Sanchez. I thank the gentleman. We have worked 
together, I think, very well on many of these issues before 
this. I would just say that we have a good faith panel in front 
of us of our colleagues with bills, and if we would have 
included everybody from this committee in front of us, we would 
have nobody to ask questions but you and I.
    So we will start with this, and we will see how we get 
through the rest of the bills, because I know there are quite a 
few. Of course, many of those bills really don't stand to the 
jurisdiction of this committee. This committee is really about 
border security, not about immigration reform, visas and other 
issues of that type.
    But having said that, the Chair now recognizes the Chairman 
of the full committee, the gentleman from Mississippi, Mr. 
Thompson, for an opening statement.
    Mr. Thompson. I will overlook the demotion. Thank you, 
Madam Chairman, and I look forward to the testimony today.
    Securing America's borders is a significant challenge for 
our Nation. The unique features of our geographically diverse 
land and maritime borders present a number of issues that 
cannot be solved with a one-size-fits-all mentality.
    We must recognize that securing our borders requires a 
multi-faceted approach. I am pleased to be a part of this 
morning's hearing, because I believe that the best way to 
develop effective border security proposals is by going through 
the legislative process and holding hearings with Members 
engaged in informed discussion.
    Everyone here today is united in their desire to address 
the challenges presented at our borders. Our dedicated border 
security professionals need our support, because their service 
is critical to the security of our borders and the health of 
our economy. That is why this Congress appropriated $14.8 
billion to DHS' border and immigration enforcement programs in 
fiscal year 2008.
    That act funded included $1.225 billion for border 
infrastructure and fencing, $507 million for additional 
helicopters and marine interdiction units, $200 million to 
identify and begin removal proceedings for incarcerated aliens, 
and funding for an additional 4,500 detention beds and 3,000 
Border Patrol agents.
    Despite this unprecedented investment in border security, 
more remains to be done. I have long said that the Department 
needs a comprehensive strategy for border security. The current 
piecemeal approach is not the answer.
    I look forward to a constructive discussion about how best 
to secure our Nation's borders and to working with my 
colleagues on both sides of the aisle to develop effective, 
common-sense border security solutions.
    [The statement of Mr. Thompson follows:]

           Prepared Statement of Honorable Bennie G. Thompson

    Securing America's borders is a significant challenge for our 
Nation. The unique features of our geographically-diverse land and 
maritime borders present a number of issues that cannot be solved with 
a ``one-size-fits-all'' mentality.
    We must recognize that securing our borders requires a multi-
faceted approach. I am pleased to be a part of this morning's hearing 
because I believe that the best way to develop effective border 
security proposals is by going through the legislative process and 
holding hearings where Members engage in informed discussion.
    Everyone here today is united in their desire to address the 
challenges presented at our borders.
    Our dedicated border security professionals need our support, 
because their service is critical to the security of our borders and 
the health of our economy. That is why this Congress provided $14.8 
billion for DHS' border and immigration enforcement programs in the 
fiscal year 2008 Omnibus Appropriations Act.
    Funding included:
  <bullet> $1.225 billion for border infrastructure and fencing;
  <bullet> $570 million for additional helicopters and marine 
        interdiction units;
  <bullet> $200 million to identify and begin removal proceedings for 
        incarcerated aliens; and
  <bullet> funding for an additional 4,500 detention beds and 3,000 
        Border patrol agents.
    Despite this unprecedented investment in border security, more 
remains to be done. I have long said that the Department needs a 
comprehensive strategy for border security. The current piecemeal 
approach is not the answer.
    I look forward to a constructive discussion about how best to 
secure our Nation's borders and to working with my colleagues on both 
sides of the aisle to develop effective, common-sense border security 
solutions.

    Ms. Sanchez. Thank you, Mr. Chairman.
    Other members of the subcommittee are reminded that, under 
committee rules, opening statements may be submitted for the 
record.
    Now to our witnesses. I welcome our first panel of 
witnesses.
    Our first witness, Representative Silvestre Reyes, is 
chairman of the House Permanent Select Committee on 
Intelligence. Before he was elected to Congress, he served for 
26 years in the Border Patrol, including as chief of the 
McAllen and El Paso sectors from 1984 to 1995. He has 
represented the El Paso, Texas, area in Congress since 1996.
    Our second witness is Representative Brian Bilbray, of the 
50th congressional district of California, which includes a 
portion of the San Diego area. In addition to serving on the 
House committees on Oversight and Government Reform, Veterans 
Affairs, and Science and Technology, Representative Bilbray 
chairs the House Immigration Reform Caucus.
    Our third witness is Representative Ginny Brown-Waite, from 
the 5th congressional district of Florida, which is situated 
along the Gulf of Mexico. Congresswoman Brown-Waite is serving 
her third term in Congress, sits on the House Financial 
Services, the Homeland Security Committee, and the Veterans 
Affairs Committee.
    Our fourth witness is Representative Gabrielle Giffords, 
from the 8th congressional district of Arizona, which includes 
a 114-mile border with Mexico. Representative Giffords was 
elected to the 110th Congress. She serves on the House Armed 
Services, the Science and Technology, and the Foreign Affairs 
Committee.
    Our final witness on our first panel is Representative 
Heath Shuler, from the 11th congressional district of North 
Carolina. Representative Shuler was elected to the 110th 
Congress and serves on the House Small Business, Transportation 
and Infrastructure, and Natural Resources Committee.
    Welcome to all of you.
    At this point I would ask unanimous consent that the 
gentlewoman from the Virgin Islands, Ms. Christensen, be 
authorized to sit for the purpose of questioning witnesses 
during this hearing.
    So be it.
    Okay. Mr. Reyes, please summarize your testimony for us in 
5 minutes or less. Welcome.

STATEMENT OF HON. SILVESTRE REYES, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Reyes. Thank you, Madam Chairwoman. Thank you for 
holding this hearing--both you and my good friend, Ranking 
Member Souder.
    I would also like to thank the Chairman of your committee, 
Mr. Thompson, because he has been to my district and to other 
parts of the border with me and knows and has an appreciation 
of just how challenging border security issues are.
    As you mentioned, before coming to Congress, I spent 26\1/
2\ years in the Border Patrol. Part of those 26\1/2\ years, I 
worked 4 years as an inspector at the international bridges in 
El Paso.
    The reason that I am here today is because of legislation 
that I have brought that primarily deals with bringing forth 
the second part of what I think is vitally important. We have 
done quite a bit in between the ports of entry with Customs and 
Border Protection.
    Now I think it is important that we focus on the ports of 
entry, the part that often gets overlooked, but also is an 
important and integral part of our whole border security 
function.
    I also want to commend the Committee on Homeland Security 
for recognizing this need to ensure that economic security of 
our Nation is taken into account when we work to secure our 
Nation's borders.
    At the beginning of the year, as I mentioned, Chairman 
Thompson held a field hearing in my district in El Paso to 
examine the many different challenges that we are facing today 
at our land ports of entry and the long waiting times being 
experienced by our constituents.
    After participating in many hearings with border residents 
and listening to the testimony at the hearing and consulting 
with my former colleagues and current leadership at DHS on port 
challenges, we crafted the bill, H.R. 5662, which we titled 
Putting Our Resources Toward Security Act, or for short, PORTS 
Act.
    This bill increases the number of customs and border 
protection officers by 5,000 over the next 5 years, which is 
sufficient to cover the vacancies on both the southern border, 
the northern border, and a significant part of airports and 
seaports.
    But this legislation doesn't just stop there. It also takes 
into account the need for support personnel positions, which, 
in my experience, has been often overlooked by Congress. It 
also addresses a very critical shortage in agricultural 
specialists.
    The PORTS Act would provide a 30 percent increase in the 
number of customs and border protection officers across the 
Nation. In discussion with customs and border protection 
personnel, this increase, as I said, would fully staff our 
ports of entry.
    This PORTS Act also would authorize $5 billion in funding 
to the General Services Administration to allow for 
reconstruction and repair of the Nation's land border ports of 
entry.
    We must look at the current state of our Nation's ports of 
entry and commit, I think, as a Congress to properly fund, in 
terms of staffing and infrastructure, our ports in order to 
provide security for our Nation.
    Being understaffed and underfunded all these years is 
simply unacceptable and not good policy in terms of our 
challenges faced on both security and commerce.
    The current administration has focused up to now their 
attention on in between the ports of entry, but this 
legislation is intended to correct a very critical part, and 
the part that we examined in the field hearing in El Paso with 
Chairman Thompson with the challenges that our ports are facing 
in terms of facilitating trade and commerce and the movement of 
people along our border communities.
    In closing, Madam Chairwoman, I appreciate the opportunity 
to come before your subcommittee. I am willing to answer any 
questions you might have about this legislation or other 
efforts.
    The last point I will make is that it is critically 
important that in the legislation that we take into account and 
consult with Customs and Border Protection and the Department 
of Homeland Security. Thank you very much.
    [The statement of Mr. Reyes follows:]

            Prepared Statement of Honorable Silvestre Reyes
                              May 22, 2008

    I would like to begin by thanking Chairwoman Loretta Sanchez and 
Ranking Member Mark Souder for holding this very important hearing 
today.
    Before coming to Congress, I served for 26\1/2\ years in the U.S. 
Border Patrol. Half of that time I was a Border Patrol Sector Chief, 
first in McAllen, then in El Paso. As the only Member of Congress with 
a background in border enforcement, I have first-hand knowledge of what 
we need to do in order to secure our Nation's borders and protect the 
American people.
    During my tenure with the INS, I spent 4 years at the El Paso 
international bridges where I helped facilitate the free flow of trade 
into our country. Security for our country does not just mean 
curtailing illegal immigration. But allowing the flow of trade critical 
to both border communities and our national economy is vital to the 
security of our country as well.
    I want to commend the Committee on Homeland Security for 
recognizing this need to ensure the economic security of our Nation is 
taken into account when we work to secure our Nation's borders. At the 
beginning of the year, the Chairman Thompson held a field hearing in my 
district of El Paso, Texas to examine the challenges facing our 
Nation's land ports of entry.
    After participating in many meetings with border residents and 
listening to the testimony at the hearing, I crafted H.R. 5662, the 
Putting Our Resources Toward Security Act, or for short, the PORTS Act. 
The bill would increase the number of Customs and Border Protection 
Officers by 5,000 over the next 5 years. But the bill does not just 
stop there.
    It also takes into account the need for support personnel positions 
which are often overlooked, as well as increases in agricultural 
specialists who ensure that our Nation's food supply coming from 
outside the United States meets the national standards.
    The PORTS Act would provide a 30 percent increase in the number of 
Customs and Border Protection Officers across the Nation. In 
discussions with Customs and Border Protection, the increase will be 
sufficient to fully staff all ports of entry--land, sea and airports. 
This would ensure that officers will not be pulled from one station in 
order to service another category of port experiencing insufficient 
staffing levels.
    The bill also authorizes $5 billion in funding for the General 
Services Administration to allow for reconstruction and repair of the 
Nation's land ports of entry.
    We must look at the current state of our Nation's ports of entry 
and commit to properly fund, in terms of staffing and infrastructure, 
our ports in order to provide security for our Nation. Being 
understaffed and underfunded is unacceptable.
    The current administration has focused their efforts on the areas 
between ports of entry and have shied away from providing needed 
resources to support efficient legal crossing at our Nation's 
international bridges.
    Don't get me wrong, as a former Border Patrol agent, I know 
firsthand the need for added resources and additional agents. However, 
I firmly believe the border must be seen in its totality and not focus 
on a single area. Every single mile of the Northern and Southern border 
needs the proper attention in order to secure our homeland. We need a 
holistic approach to border security.
    While we have been pumping millions of dollars into technology that 
is supposed to be protecting our Nation's security between the ports of 
entry, a Government Accountability Office (GAO) report showed during 
fiscal year 2006, Customs and Border Protection officers failed to stop 
10 percent of illegal immigrants, drugs and weapons violators from 
entering the United States through airports and land border crossings.
    While I strongly believe we need a proper balance between agents on 
the ground, technology at our borders, and tactical infrastructure, we 
cannot forget all the agencies securing the border along with Border 
Patrol. The GAO report speaks to this exact point. Our Nation's 
international bridges have been neglected, causing bridge wait times to 
swell up to 3 hours.
    Beyond the strain those wait times put on our economy and border 
residents, ports of entry which are inadequate and understaffed put our 
national security at risk.
    Thank you for allowing me to address your committee about the need 
for the provisions in the PORTS Act. I look forward to answering any 
questions you might have.

    Ms. Sanchez. Thank you, Mr. Reyes. We certainly are the 
better here in Congress for having someone who has direct 
experience there on many of our land borders. So we appreciate 
you coming before our committee.
    I will remind everybody that without objection the 
witnesses' full statements will all be inserted into the 
record.
    I now recognize Representative Bilbray, of my home State of 
California, to summarize his statement for 5 minutes.

    STATEMENT OF HON. BRIAN P. BILBRAY, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Bilbray. Thank you, Madam Chair. I appreciate being 
here, and I appreciate being here with the authors of the bills 
before you. I guess I am here as the B team as a sponsor of 
each one of these bills.
    I come from a background of born and raised at the border. 
I was also privileged to be able to be a child of an immigrant 
into this country. But growing up on the border and spending 
most of my leisure time south of the border, I look at this 
issue from a different perspective than most people do--more 
looking up at it, rather than down at it.
    I think that one of the critical things we need to remember 
is, as we face the challenges of securing our borders, we need 
those resources along our ports of entry. San Diego is known as 
a great port city, but it is not well-known that our southern 
part of San Diego has the largest port of entry in the world--
land port of entry in the world--called San Ysidro.
    Watching the activities along the border my entire life, I 
have come to the conclusion that, while we need to study, as 
Ms. Giffords pointed out, how to be more efficient in our 
resources--and I strongly support the concept of Congressman 
Reyes' bolstering of the resources, especially ag inspection 
along the border--we need to talk about issues like Ms. Brown-
Waite and Mr. Shuler's issue that if you are going to secure 
the border, you have got to stop the illegal activity that is 
happening at the border.
    The sheer numbers of those illegal activities--and I think 
just this week we saw the cartel and the violence that is 
happening along the border. It may surprise you, but I strongly 
support military aid to Mexico to address that fight that the 
people of Mexico are having to defend their sovereignty against 
the drug cartels, because that threat is our threat, too.
    We should work together at fighting while it is still on 
Mexican soil, before it ends up on U.S. soil. In fact, it is 
already done on San Diego soil. We have got murders and kidnaps 
in San Diego.
    So that aside, Madam Chair, we have got to remember, 
though, that just as we cannot stop drug trafficking at the 
border if we just try to do it all at the border, the other 
activities, such as illegal immigration, are contributing not 
just to the problem of immigration.
    But the fact is that terrorism and the bad guys, who want 
to do us harm and are crossing the border specifically to 
attack the American people with harm, hide among those elements 
that may want to smuggle drugs or just come here for illegal 
employment.
    Until we reduce the number of that--all illegal activity 
along the border--we will never be able to secure the American 
neighborhoods in the interior from the threat from overseas 
until we address that.
    That is why it becomes essential that we not only have the 
resources along the border, but that we also have a plan that 
can be conceived that actually addresses the source of the 
problem.
    Just as we have addressed the fact that we can't stop 
illegal drug activity just at the border, and we have interior 
enforcement--we do have our local law enforcement arresting 
people who are illegally in possession of drugs, we do crack 
down on the drug dealers in the cities and homes in America who 
are actively pursuing these pursuits--we also need to finally 
do the tough thing, when it comes to illegal employment and 
illegal immigration.
    Let us be frank about it. The source of illegal 
immigration, No. 1, overwhelmingly, is illegal employment. But 
it is so much easier for us politically in Washington to point 
fingers at the border, but not tell our friends, ``Stop hiring 
these people, because they are creating the problems that we 
are seeing along the border.''
    Madam Chair, I would ask that we just take a look at the 
fact that we have a very moderate with Mr. Shuler that just 
says you use e-verification. The fact is that system has been 
proven over the years, over a decade, to work very well.
    In fact, that is why Members of Congress--and short of some 
procedural small percentage of problems--if we can't come 
together with Mr. Shuler's bill, where you have 49 Democrats, 
over 100 Republicans, let us not go back to the people of 
America and say we are really willing to secure our borders and 
our neighborhoods, because we don't want to work together.
    I would ask for the record that DHS' leadership journal on 
the e-verification by Stewart Baker be included in the record 
specifically on this item.
    I strongly support Mr. Reyes' upgrade of the Social 
Security card, which hasn't been upgraded since 1937, Madam 
Chair. Why in the world has the Federal Government not upgraded 
its No. 1 document for employment, except for the fact that we 
don't want the system to work on interior enforcement?
    I will close just by saying this. There were 85 people who 
pleaded guilty in Iowa this week. Seventy-seven of them are 
going to prison, because they used somebody else's Social 
Security number. I would like to know what is happening to the 
employer.
    If we had used e-verification here, those 77 people would 
not be going to prison today. They would have been turned back 
and gone home, where they should have. That is the kind of 
thing we ought to be working together with.
    Thank you very much, Madam Chair.
    Ms. Sanchez. Thank you. I thank my colleague from San 
Diego, and I would just remind him that the e-verification 
system and the Social Security card really aren't under the 
jurisdiction of this subcommittee.
    It really falls under the jurisdiction of Ways and Means. I 
think they have held a recent hearing, and I wasn't there that 
day, so I don't know if they went over those issues. But this 
committee has jurisdiction more to the border, not to Social 
Security items.
    I would now like to recognize for 5 minutes or less our 
representative from Florida, Ms. Brown-Waite.

   STATEMENT OF HON. GINNY BROWN-WAITE, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Ms. Brown-Waite. Thank you very much, Chairman and Ranking 
Member Souder and members of the committee, for allowing these 
bills to be heard.
    I am pleased to speak on behalf of my bill, H.R. 3531, and 
join my colleagues, who have taken steps to confront our 
Nation's border security and immigration crisis.
    H.R. 3531, the Accountability in Enforcing Immigration Laws 
Act of 2007, would ensure America's immigration laws are 
actually upheld. It would also serve as a critical deterrent to 
illegal entry, an invaluable border enforcement tool.
    This bill was drafted after, in this very room, I asked 
Secretary Chertoff if he had the authority to deny Homeland 
Security funds to sanctuary cities or municipalities that took 
steps to provide sanctuary to illegal immigrants.
    Such practices certainly negate any effectiveness of our 
immigration laws or border security measures. We cannot have 
local leaders refusing to assist in managing the growing law-
breaking population of our Nation.
    In response to my question about sanctuary cities, 
Secretary Chertoff said, ``I don't know that I have the 
authority to cut off Homeland Security funds, if I disagree 
with a city's policy on immigration.''
    Well, many think that it is time to give him that 
authority. First, this bill clarifies that law enforcement has 
the inherent authority to investigate, apprehend, arrest, 
detain and transfer to Federal authorities any illegal 
immigrant apprehended in the course of routine duties.
    The bill revokes 25 percent of non-emergency Homeland 
Security funding for sanctuary cities within 6 months of 
enactment and gives the secretary authority to cut up to 50 
percent.
    If a city isn't willing to uphold our laws, why should DHS 
provide that city with additional funding?
    Besides holding sanctuary cities accountable, this bill 
would also make illegal entry into our country a felony.
    In addition to these two fundamental measures, H.R. 3531 
prescribes several other attempts to confront illegal 
immigration. In an effort to improve protection of critical 
infrastructure, the bill requires annual immigration checks for 
airport employees and other critical infrastructure site 
employees.
    As I have mentioned before in the mark up of the Chemical 
Facilities Bill, Americans deserve to know those who are 
working on our critical infrastructure sectors are here legally 
and that they are authorized to work and not that they have 
overstayed their visas, as did the majority of the 9/11 
hijackers.
    Second, the strain of dealing with illegal aliens while 
waiting for ICE is squeezing law enforcement resources. 
Accordingly, my bill requires ICE to take illegals into custody 
or pay State or local governments a per diem rate to detain the 
aliens until the individual is removed.
    Finally, the encourage enforcement of immigration laws, 
H.R. 3531 includes several provisions to provide financial 
assistance for an increasing cooperation with State and local 
law enforcement officials.
    The bill specifically authorizes the State criminal alien 
assistance program an additional $1 billion a year and 
authorizes a bonus program for State and local law enforcement 
agencies for assisting in enforcing immigration laws under the 
287(g) program.
    It is time, clearly, to address the immigration crisis 
facing our Nation, and this proposal, such as this and 
Congressman Shuler's SAVE Act, along with I just yesterday 
signed onto Representative Reyes' bill for additional law 
enforcement along the border--it certainly is time that we 
really get serious about enforcing our Nation's immigration 
laws.
    I look forward to discussing all these issues today and 
welcome the committee's questions.
    Thank you, Madam Chairwoman.
    [The statement of Ms. Brown-Waite follows:]

           Prepared Statement of Honorable Ginny Brown-Waite
                              May 22, 2008

    Thank you Chairwoman Sanchez, Ranking Member Souder, and Members of 
the subcommittee.
    I am pleased to speak on my bill, H.R. 3531, and join my colleagues 
who have taken steps to confront our Nation's border security and 
immigration crisis.
    H.R. 3531, the ``Accountability in Enforcing Immigration Laws Act 
of 2007,'' would ensure that America's immigration laws are upheld.
    It would also serve as a critical deterrent to illegal entry and a 
valuable border enforcement tool.
    This bill was drafted after I asked Secretary Chertoff if he had 
the authority to deny Homeland Security funds to ``sanctuary cities''--
or municipalities that took steps to provide sanctuary to illegal 
immigrants.
    Like so many Americans, I am disturbed by the growing trend of 
cities and localities instructing law enforcement to ignore immigration 
status in the course of routine duties.
    Such practices negate any effectiveness of our immigration laws or 
border security measures; we cannot have local leaders refusing to 
assist in managing the growing lawbreaking population in our Nation.
    In response to my question about sanctuary cities, Secretary 
Chertoff said, ``I don't know that I have the authority to cut off all 
Homeland Security funds if I disagree with the city's policy on 
immigration.''
    Well, it's time Congress granted him authority.
    First, H.R. 3531 clarifies that law enforcement has the inherent 
authority to investigate, apprehend, arrest, detain, or transfer to 
Federal authorities, any illegal immigrant apprehended in the course of 
routine duties.
    The bill also revokes 25 percent of non-emergency Homeland Security 
funding for sanctuary cities within 6 months of enactment, and gives 
the Secretary authority to cut up to 50 percent.
    If a city is unwilling to uphold our laws, why should DHS provide 
that city with additional funding?
    Besides holding sanctuary cities accountable, H.R. 3531 would also 
make illegal entry into our country a felony.
    This provision acknowledges a simple truth when it comes to border 
security: there has to be a real penalty for illegal entry into the 
United States.
    More agents, fencing, and technology is important, but the greatest 
deterrent is the knowledge that illegal entry comes with the risk of 
mandatory detention and substantial jail time.
    In addition to these two fundamental measures, H.R. 3531 prescribes 
several other steps to confront illegal immigration.
    In an effort to improve protection of critical infrastructure, H.R. 
3531 requires annual immigration status checks for airport employees 
and other critical infrastructure site employees.
    As I have mentioned before, in the markup of the Chemical 
Facilities bill, Americans deserve to know that those working in 
critical infrastructure sectors are here legally--that they are 
authorized to work and have not overstayed their visas, as did the 
majority of the 9/11 hijackers.
    Second, the strain of detaining illegal aliens while waiting for 
ICE is squeezing local law enforcement resources.
    Accordingly, my bill requires ICE to take illegals into custody, or 
pay State and local governments the per diem rate to detain the alien, 
until that individual is removed.
    I am aware that there is an expensive proposal, but if we are ever 
really going to be serious about securing the border and enforcing our 
laws, it is essential to ramp up ICE resources.
    Finally, to encourage the enforcement of immigration laws, H.R. 
3531 includes several provisions to provide financial assistance for, 
and increase cooperation with, State and local law enforcement.
    The bill:
  <bullet> authorizes the State Criminal Alien Assistance Program 
        (SCAAP) at $1 billion per year,
  <bullet> and authorizes a bonus program for State and local law 
        enforcement agencies for assistance in enforcing immigration 
        laws under the 287(g) program.
    Combined, the many provisions of H.R. 3531 would combat sanctuary 
cities, deter illegal entry into our country, and support State and 
local law enforcement as they uphold our Nation's immigration laws.
    It is time to address the immigration crisis facing our Nation, and 
with proposals such as H.R. 3531 and Congressman Shuler's SAVE Act on 
the table, Congress has the ability to move forward and begin to solve 
the problem.
    I look forward to discussing these issues today, and welcome the 
committee's questions.

    Ms. Sanchez. I thank the gentlewoman from Florida. As we 
know, you are a Member of this committee, so you have, I think, 
a real deep understanding of what many of the issues are, so we 
welcome you before, and your testimony.
    I now recognize Representative Giffords to summarize her 
statement for 5 minutes or less. Welcome.

   STATEMENT OF HON. GABRIELLE GIFFORDS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Ms. Giffords. Thank you, Madam Chair and Members of the 
committee. I appreciate the opportunity to testify before such 
a distinguished group of Members, and such a distinguished 
group of panelists as well.
    I probably represent 9,000 square miles of a southeastern 
Arizona border district. I have 114 miles of the 2,000 U.S.-
Mexico border. My community is directly on the frontlines of 
America's immigration crisis.
    You can imagine immigration is just as polarizing and 
emotional in my district as it is right here in Capitol Hill. 
But in southern Arizona, where we are on the frontlines, we 
want Members of Congress to roll up their sleeves, roll up our 
sleeves, get to work, tone down the hysterics, tone down the 
rhetoric, and fix this broken system.
    Along with most of the Arizona delegation, I support 
comprehensive immigration reform.
    Chairwoman, you talked about that.
    Mr. Chairman, you talked about that as well.
    It is truly the only way that we are going to solve this 
very complex problem. I know that the topic of today's hearing 
is solely about border security, but I just want to lay that as 
a framework, because if we are going to really solve that 
problem, we need to focus on a comprehensive solution.
    My district is unique. My district includes the Tucson 
sector of the Border Patrol, which is the most porous part of 
the U.S.-Mexico border. In fiscal year 2007, almost 400,000 
apprehensions were made by the Tucson sector Border Patrol. 
Forty-four percent of all the apprehensions along the border 
happen within my district, so approximately 1,000 illegal 
crossings every day.
    Over 950,000 pounds of the 2 million pounds of marijuana 
were seized in fiscal year 2007 in the Tucson sector of the 
Border Patrol. Illegal guns, violence from Mexican drug 
cartels, international criminals as well are making their way 
through my border ranches, through my communities, retirement 
homes, all through southern Arizona.
    There are a lot of proposals out there. I am pleased to 
join with Mr. Cuellar in H.R. 1909, because funding the 
criminal immigration courts is important. I am also a co-
sponsor of Chairman Reyes' Southwest Regional Border Authority 
Act, H.R. 2068, which is a very important piece of legislation 
as well.
    But I have worked with Congressman Bilbray to introduce 
H.R. 5552, the Border Security Accountability Act.
    Madam Chair, you talked about the billions of dollars being 
put toward border security. But we have to ensure that the 
taxpayers' dollars are effectively being spent. We need 
transparency, and we need accountability within DHS. We need 
solid data on the apprehensions, detentions and the deportation 
process being implemented by the agency.
    In addition, I believe that Congress needs--Members need--
to have detailed information about the success rates, including 
exact distance apprehensions that take place from the border 
and the release rates for those apprehensions.
    So while we continue to put millions and millions of 
dollars--billions of dollars--towards the border, I think we 
have to have a thorough assessment of the staffing, equipment, 
training and the policies for all of the border security 
functions.
    As our legislation instructs, Congress must demand 
meaningful data from DHS on the effectiveness and the costly 
investments. So I am working as well to make sure that my 
constituents--that our taxpayers--have an opportunity to 
evaluate the structures, the operations, and to provide input 
into the planning of these processes.
    If we had more input from people on the border, I don't 
believe that the failures we have seen with the Secure Border 
Initiative would happen, where there was no confrontation with 
the local authorities or with the Border Patrol right there on 
the frontlines.
    Last December a bipartisan group of nine lawmakers from the 
House and Senate joined me as well to study the effectiveness, 
using a GAO study, of the checkpoints along the U.S.-Mexico 
border, because as we build more infrastructure, we have to 
assure taxpayers and residents that the infrastructure is 
actually working.
    I am pleased to work closely with Chief Gilbert and his 
staff. We have had a variety of meetings up and down the 
border. I hope in the question-and-answer, we can get to this, 
because here, for example, are the meeting and notes with my 
ranchers on the frontline about what really happens when you 
have hundreds of thousands of people moving through your 
community.
    So a lot is going on. Staff funding is something very 
unfunded. We should talk about that as well.
    So, just in closing, Madam Chair, southern Arizona, I think 
like most Americans, expect their elected officials to tackle 
not just the easy problems, but the tough problems. The fact 
that immigration has become polarized--it has become ugly, 
radioactive--is a reason why Congress has to move.
    It has become fashionable here on Capitol Hill to talk 
tough about immigration, but when it comes to the larger 
immigration crisis as a whole, it is shortsighted to look at an 
enforcement-only solution.
    The fact remains that all of it--the border, the visas, the 
deportation, the citizenship, verification, the Social 
Security, the green cards--this all is the responsibility of 
the Federal Government.
    We can't just wring our hands. We have to get to work. If 
this 110th Congress does not move forward on meaningful 
legislation coming out of your subcommittees, I think that this 
110th Congress will be a failure.
    Ms. Sanchez. Thank you, Ms. Giffords. I would just remind 
you that I wish we had all those pieces of jurisdiction, but 
the reality is ours is much more limited.
    I think you are correct when we talk about staffing and 
accountability. I believe the second panel will give some of 
that information.
    Two of our subcommittees just made a visit to your district 
recently maybe in the last 2 weeks--and I would just say, as 
someone whose parents are originally from your border, and I 
have family on both sides of that border, when I go there and I 
see what has become of your border, your area, as opposed to 
what it was like 30 or 40 years ago, people who live there 
really have a challenge.
    We need to do as much as we can. So I appreciate your 
testimony.
    We will now go to our last panelist, and that would be 
Representative Shuler, please, to summarize your testimony in 5 
minutes or less. Mr. Shuler.

 STATEMENT OF HON. HEATH SHULER, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF NORTH CAROLINA

    Mr. Shuler. Thank you, Madam Chair. Thank you so much for 
all the hard work that you--and Ranking Member Souder has 
also--and also having Chairman Thompson here.
    Mr. Thompson, it is really good to have you here in our 
presence.
    This year in November, I have been working, since I was 
first elected here, to do something about the problems that we 
had in my district--drug trafficking from Atlanta to Charlotte 
comes right through my district, through Knoxville, Tennessee, 
Interstate 40, 26, 85.
    So we have truly had a tremendous amount of problems and 
issues with drug trafficking--the costs and expenses as it 
relates to incarceration, as it relates to education.
    It was very strong that my district really wanted to do 
something about immigration, and it was the No. 1 topic. It far 
exceeded the issues with the war in Iraq. It was the No. 1 
topic that was talked about. It continues to be the height of a 
lot of the problems and issues that we have in our district.
    People say, ``Why North Carolina?'' Well, it is the No. 1 
State for increase of illegal immigrants coming through our 
State--No. 1 in the United States. So we have worked several 
months with a lot of Members of the Congress, spent many hours 
talking to the Border Patrol, sending staff to the border to 
talk about the importance and the issues that they see--not 
just what happens up here in Washington, but actually talking 
to the people that are doing the job every day.
    So much and so often, we look at it at 10,000 feet, when we 
really need to talk to the individuals who are participating. 
When they are having to--the lack of space. In some of the 
pictures that were taken from the some of the Border Patrol 
offices, the ceiling was falling in.
    They were having to trade out their guns. They didn't have 
their own equipment. The vehicles that they were using they 
were having to trade out. Some of them are broken down.
    So I commend this subcommittee and the committee as a 
whole, that the amount of authorization money that we hope to 
be able to get through what seems to be a fight with the 
administration talk about wanting to be strong on security, 
when in fact this administration has allowed the influx of 
illegal immigrants coming to this country for many years now.
    So I introduced the SAVE Act. It had 44 Democrats, 46 
Republicans as original co-sponsors. Now there are 243 Members 
of the Congress and 44 States represented on the bill.
    We realized that people are coming here for work and to 
better their families. I respect that people want to better 
lives and to better their families. That has been the American 
way.
    So many people who have gone through the right paths, who 
have waited their time, and gone through the path of 
citizenship--those are the people in my district who spoke out 
first about the time that they had stood in line in their 
country, waited in the line in order to become an American 
citizen and have the opportunity to come here.
    H.R. 48 increases Border Patrol agents by 8,000 Border 
Patrol agents, provides funding for new technology and 
infrastructure. It doubles the funding for the Tunnel Task 
Force, a special enforcement program to stop human and drug 
smuggling.
    It creates a blueprint. I know there has been so much money 
spent, but it is a blueprint on recruiting new agents, 
incentives, retention, and just to name a couple, relocation 
bonuses, student loan payoffs as some way to actually some of 
the better and more qualified folks to go to some of the 
desolate areas on our border.
    The second part, obviously, doesn't pertain to this 
committee, but I think it is probably the most important thing. 
If you cut off the job magnet, you are going to stop the 
numbers of people who are coming here for jobs.
    E-verify would be a mandatory program. Take the liability 
off the employer. That way they don't have to be document 
experts. Presently right now, one out of eight new hires in the 
United States--employees that go through that are newly hired--
go through E-Verify.
    Our entire staff--I don't know if Members of Congress have 
gone through E-Verify. I have. I got clearance in less than 2 
seconds. It took less than 3 minutes to fill out the form 
online. But all Federal employees go through E-Verify.
    For every 1,000 workers that go through, 942 instantly have 
verification by the system. Five successfully contest the dis-
match, which basically is primarily when a woman is married, 
and her name is changed. Then the other, obviously, we have 53 
who don't contest. Fifty-three that do not contest, and 
typically where the research has found that they are here 
illegally.
    So we have interior enforcement. I know my time is up, but 
in my district we had two people who were here illegally for 
trafficking drugs. They were in Clay County, North Carolina, 
and they were arrested. They served their time. They called the 
ICE. The sheriff called the ICE agency in Charlotte and said, 
``I have two people that are here illegally, and they have been 
trafficking drugs.''
    They said simply, ``When you get a busload, call me. We 
will come.'' Out the door they were released. Three days later 
they were arrested again for methamphetamines in our district.
    We have got problems. We have got issues. What is the cost 
of protecting our borders?
    Madam Chair, thank you for all your hard work, your 
dedication.
    To all my colleagues, all that they have done in trying to 
protect America and making sure our borders are secure, and to 
everyone involved, thank you.
    [The statement of Mr. Shuler follows:]

              Prepared Statement of Honorable Heath Shuler
                              May 22, 2008

    Madam Chair, Members of the subcommittee, last November I 
introduced H.R. 4088, the bipartisan SAVE Act, with 44 Democrats and 46 
Republicans committed to stopping illegal immigration through improved 
border security, employment verification and increased interior 
enforcement.
    Today, 243 Members of Congress from 44 States have joined their 
constituents in calling for a debate and a vote on the SAVE Act in one 
form or another.
    All of us agree that illegal immigration is one of the most 
pressing issues facing America today and that we cannot continue 
ignoring this problem by passing it on to future Congresses and future 
Presidents.
    U.S. Customs and Border Protection estimates that over 12 million 
people are currently here illegally and as many as 6,000 illegal aliens 
are breaching our borders every day.
    The vast majority of these individuals come to our country in good 
faith to find work and a better life for their families.
    The SAVE Act recognizes that America is a nation of immigrants and 
a nation of laws--Madam Chair, these are not opposing values.
    Yet while our country must have a welcome mat to those who come 
here legally, we must also consider the rules of entry, the costs 
illegal immigration place on local and State governments, and the 
effect on millions of American citizens who are unemployed.
    While the SAVE Act has a strong emphasis on border security and 
interior enforcement, the real thrust of my legislation deals with 
employment verification.
    Dishonest employers who seek to exploit low-skilled immigrant labor 
are the primary cause for the rapid increase in our illegal population.
    In most cases, the jobs they offer act as a magnet, drawing people 
over 20-foot walls and through inhumane desert conditions to find work.
    Two decades ago, our government sought to stop illegal hiring 
through the use of the Form I-9 for all new employees hired after 
November 1986.
    While employment verification is current law, Form I-9 compliance 
alone requires business owners to be document experts as they determine 
if an ID is valid--this places serious liability upon them if they make 
a mistake.
    To deal with these concerns, Congress created the Basic Pilot 
Program in 1996 that is now known as E-VERIFY.
    The SAVE Act would expand this pilot program Nation-wide over a 4-
year period, affecting 40,000 larger businesses in the first year and 
slowly including smaller businesses in the final 3 years.
    E-VERIFY is a Web-based system that electronically verifies whether 
or not an individual can legally work in the United States.
    E-VERIFY is free, easy to use, and it allows participating 
employers to successfully match 94 percent of new hires to DHS and SSA 
databases in less than 5 seconds.
    Of the remaining 6 percent that are not matched, less than 1 in 6 
of those employees bother to contest the result.
    There are currently more than 65,000 employers representing 240,000 
worksites using E-VERIFY.
    More than 1,000 employers are enrolling each week.
    The system has the capacity to process 25 million queries per year 
and is currently being updated and expanded.
    E-VERIFY outlines fair and proper methods of using the system in 
multiple languages to protect employees from discriminatory hiring 
practices.
    E-Verify gives employers the tools they need to follow our Nation's 
immigration laws and to avoid the penalties that result from hiring 
illegal aliens.
    Madam Chair, I have the utmost confidence in this program, as does 
the Republican Secretary of Homeland Security and the Democratic 
Governor of Arizona, who recently signed into law legislation making E-
VERIFY mandatory for all employers in the State.
    Every Congressional staffer and employee of a Federal agency has 
passed through the E-VERIFY system over the past decade.
    E-VERIFY is required by law in varying degrees in Arizona, 
Colorado, Georgia, Idaho, Minnesota, Utah, Mississippi, Oklahoma, and 
my home State of North Carolina.
    Prior to each State making this effort, several interest groups 
warned of impending disaster if E-VERIFY became law.
    Yet a spokeswoman for the Arizona Chamber of Commerce, a group that 
opposed E-VERIFY in its State legislature last year recently said:
  <bullet> fewer problems have been reported than originally feared;
  <bullet> companies have not left the State in reaction to E-VERIFY; 
        and,
  <bullet> employers have not reported major problems with the 
        database.
    As of last week, DHS was unaware of one case since 1996 when a U.S. 
citizen was denied employment because of an error with the E-VERIFY 
system.
    It is my belief that Congress must find the necessary funds to 
enforce immigration laws, secure the border, protect American workers 
and provide for retirees and the disabled.
    Madam Chair, thank you for the opportunity to speak on the SAVE Act 
today.
    I am pleased that your committee is taking on this vital issue with 
a common sense approach.
    I am happy to answer any questions you might have.

    Ms. Sanchez. Thank you, Mr. Shuler.
    I thank all of the witnesses for your testimony.
    I will remind each member that he or she will have 5 
minutes to question the panel. I now recognize myself for 
questions that I have.
    Mr. Reyes, your bill offers an increase in staffing for 
customs officers and improvements in infrastructure at ports of 
entry. I think these are needs that have been overlooked in 
almost any legislative piece that comes forward.
    How important is it to maintain operable infrastructure and 
proper staffing levels at our Nation's ports of entry?
    Mr. Reyes. Well, Madam Chair, I think it is critical and 
vital. We are seeing the results of not focusing on this aspect 
of border security by the long waiting lines that impact our 
communities and that impact our business and our trade and our 
commerce.
    I will give you an example. In El Paso, where Chairman 
Thompson held the field hearing, we are running consistently a 
vacancy ratio of Customs and Border Protection inspectors. 
Those are the ones that inspect vehicles coming back from 
Gaddes, from Mexico, of about 30 to 38 percent. That means 
three to four out of every 10 positions are vacant.
    When we looked at the issue nationally, that is pretty 
consistent nationally. So I think it is critically important 
that we do the same thing for Customs and Border Protection at 
three ports that we have done for Customs and Border Protection 
in between the ports of entry.
    Let us not forget that a tremendous amount of our economy 
comes through those ports of entry, whether you are talking 
about the southern border or the northern border. A lot of 
these bills that I have been asked to co-sponsor seem to all 
focus on the southern border.
    From a national security perspective, we have to recognize 
that our northern border is left pretty much unprotected and 
untouched, even though it is critical for our trade and 
commerce as well.
    Ms. Sanchez. I would agree with you on that northern border 
issue. We know that, for example, the millennium bomber who 
came to LAX was apprehended at the northern border, or the guy 
who had tuberculosis was coming through the northern border. We 
really haven't had any of those issues at the southern border.
    So I think this committee is very cognizant, and we have 
held a couple of hearings up at the northern border, because 
they do need many, many resources. It is like a chain. Where 
the weakest link is is where--if I were a terrorist or I were a 
drug dealer, that is where I would pop in. So I think this 
committee is very cognizant of that, Mr. Reyes.
    I would like to say that--and Mr. Bilbray knows this--I am 
a Californian. I have homes and friends and family on the 
southern side of his district, and crossing that border, even 
though there are 28 gates open at one time or whatever it is, 
sometimes can take you 2 or 3 hours. So I think we really do 
need to rethink and try to stock up for that.
    Mr. Shuler, beyond the staff increases that you propose for 
Border Patrol agents, what resources does your bill give to the 
customs officials and personnel that operate our ports of entry 
to ensure drugs and weapons of mass destruction do not enter 
the United States?
    Mr. Shuler. Well, obviously, the Tunnel Task Force--
increase in the funding for that. Then we also, in the SAVE Act 
increases more than double the amount of northern Border Patrol 
agents to our northern border. So not only is it focused on the 
southern border, but also increases to our northern border as 
well.
    So the most of the focus has been on the infrastructure, 
the tools that are necessary, and a pilot program for the 
Department of Homeland Security and the Department of Defense 
so they can utilize some of the equipment that is not used in 
theater, and that may be retired, that can be utilized in 
homeland security on the border patrol--humvees, vehicles, 
drones and other uses of equipment.
    Ms. Sanchez. But doesn't the Tunnel moneys--you don't 
really have new resources or new thoughts on how to do weapons 
of mass destruction, those types of terrorist people coming 
across, whatever border it may be.
    By the way, aside from the border that we have on the north 
and the south, we have an incredible amount of coastland on 
both sides of the continental United States--Puerto Rico, 
Virgin Islands, Hawaii. We have Alaska. We have a lot of coast 
also to cover.
    Mr. Shuler. Yes, oh, absolutely, and I totally agree. I 
think there should be added funding. That is why, if you look 
at the funding that has been authorized from this committee, 
and we are hoping that the committee wins out and we get those 
budgets passed through, that we can have the security that we 
need.
    Ms. Sanchez. Thank you, Mr. Shuler.
    I see that my time is up, so I am going to defer to my 
ranking member for his 5 minutes.
    Mr. Souder of Indiana.
    Mr. Souder. Thank you, Madam Chairman. First I would like 
to point out for the record that all the bills that I read at 
the beginning in my opening statement from Members of this 
committee have been referred to this committee, as has Mr. 
Shuler's.
    The 9/11 Commission blistered Congress--blistered 
Congress--for having too many committees and no central 
jurisdiction. Under Republicans, we didn't get that done. Under 
Democrats, we didn't get that done. It is important that this 
committee lead, and that we should be the first out of the box, 
if there are joint referrals. Some of these things are joint 
referrals. But this committee leads, because we are the No. 1 
homeland security committee.
    I also want to share Chairman Reyes' concern about ports of 
entry. I believe that has become the big problem, because an 
agent is having to make decisions about the commerce in America 
and how much time he takes, because we simply don't have the 
resources and the infrastructure. Trucks get held up. It is on 
the north and the south border.
    It isn't true to say that we haven't had terrorist 
intercepts on the south border. We are intercepting on both 
borders, and we just had the U.S.-Canada Parliamentary session.
    We have one man who owns Ambassador Bridge, who quite 
frankly has been giving political contributions in both 
parties, that has held up infrastructure on the north border, 
and it is becoming--particularly at the Detroit area.
    This is another question. Should private companies hold the 
chokepoint and then refuse to participate when the Federal 
Government needs to have additional? This has to be 
investigated on what is going on in Detroit. We have had some 
problems up in Buffalo as well.
    I wanted to ask Congresswoman Brown-Waite. I have a problem 
in my district--not getting into whether people are getting 
arrested just for being illegal immigrants, but criminal. These 
have committed criminal acts.
    One hundred forty-four, as of 2 weeks ago in my biggest 
county, Allen County, have been called in and not picked up, 
according to Sheriff Fries. In Noble County, a smaller county 
in the north, 40 have been called in and not picked up. These 
are people who have been arrested for other things.
    In your bill you address some of this, and what I am 
wondering is that some critics say that this puts local police 
in conflict with immigrant communities, that this is too 
expensive to do. How do you respond to that?
    Ms. Brown-Waite. I am beginning to think that you have the 
same problem that I have, and many other individuals who 
represent--senators and Congress have--and that is when ICE is 
called, they simply don't show up. Or they wait until there are 
enough to show up to maybe fill a van.
    This clearly would have local law enforcement working, 
which--we can never have enough Federal officials. We need the 
cooperation of the local police, the sheriffs' offices. We need 
to be working hand-in-hand.
    Many law enforcement officers want to help, but they also 
have strained budgets and want to be reimbursed. If they send 
their officers through the 287(g) program, obviously it is a 
couple of weeks that they are not working, but rather in 
training. That is a quest to a community.
    They want to send them. My bill would actually have bonuses 
for those communities that are willing to step up and help the 
Federal Government in enforcing illegal immigration.
    I have the same problem, and not only that, but when I 
wrote the Department, because they closed the detention center 
in my area, which, of course, forced more people into the local 
jails, I was told, ``Don't worry, because we contracts with the 
local jails, and we are paying them.''
    The truth of the matter is the local jails had eliminated 
those contracts a long, long time ago, and I got 
misinformation. But I know my district. So I wrote back, and I 
challenged them. I said, ``I don't know if you purposely lied 
to me, or you are just out of touch, or you got wrong 
information, but I am sorry. There are no contracts in my 
county to house illegal immigrants.''
    Mr. Bilbray. Congressman, to reinforce your statement, 
though, if you go to ask the Border Patrol agents along the 
border, and you want to secure the border--and this is where it 
comes to Homeland Security--they will tell you, rather than 
sending us another Border Patrol agent we want, if it is a 
choice between an ICE agent in your neighborhood or a Border 
Patrol down in San Ysidro, they will say, ``Send the ICE agent, 
because there is where you are addressing the problem that is 
not being looked at at this time.''
    Mr. Souder. One of our problems here is we need to 
adequately fund this. We need to pass the bills and adequately 
fund it, because right now even local law enforcement people 
who are asking for the training, it doesn't do any good, if 
nobody picks up them up and there is no detention center. These 
are criminal aliens beyond immigration law.
    Mr. Bilbray. Mr. Shuler's bill increases by 1,200 the 
availability of ICE agents for your neighborhood.
    Ms. Sanchez. I now recognize for 5 minutes the Chairman of 
the full committee, Mr. Thompson of Mississippi.
    Mr. Thompson. Thank you very much, Madam Chairman. Like 
you, I appreciate the interest of our colleagues in this 
matter.
    One of the issues for a lot of us here is whether or not we 
have put together a plan for border security. Every one of your 
bills is part of a border plan.
    We have tried to get the Department to come forward and 
produce a plan or strategy for border security that we can use 
as the framework to fund. Unfortunately, we have not been able 
to get such a strategy or plan from the Department.
    So what we end up with is just like what you have presented 
to us for consideration as a committee. It is your idea of how 
we can address part of the problem. They all have merit, and I 
applaud you for that.
    But the question is how can we successfully do it with a 
Department that first of all very rarely requests enough 
resources to do its job? Second, we give them resources to do 
the job. Then they either don't do the job, or they do it in 
such a reduced manner that we have to carry it over to the next 
fiscal year.
    So my concern is if it is a matter of resources, can we 
provide the resources to a Department that is reluctant to 
train people? The record is clear that every time 
administration has requested individuals, Congress plussed-up 
the number to try to address it. But when we look at who 
actually goes through the pipeline and actually gets into the 
field, the number is woefully inadequate.
    So I am concerned whether or not we can do it as a 
Department, even if we gave the resources.
    Mr. Reyes, could you tell the committee whether or not just 
giving more money to add personnel is the answer to part of 
what we are dealing with? Or what do you think, in your years 
of experience along the border, what your recommendation would 
be?
    Mr. Reyes. Well, I don't think money is the total answer. I 
hope in the next administration we start with a secretary of 
Department of Homeland Security that has experience or a basic 
understanding of what the challenge is. This is not a knock on 
any of the incumbent or the previous secretary.
    But I think you have got to have a comprehensive 
understanding of the challenge of border security and interior 
enforcement, as Congressman Bilbray mentioned. I think you have 
got to pay attention to working in partnership with our two 
neighbors, Canada on the northern border and Mexico on the 
southern border.
    I think we have got to get away from demonizing the 
southern border and ignoring the northern border. Mr. Shuler 
puts 80 percent of the Border Patrol agents on the southern 
border.
    He made a statement that he doubles the number of agents on 
the northern border. Well, doubling the number of agents, you 
go from maybe 300 to 600, or 700 to 1,400, for over 3,000 miles 
of some of the most desolate area on both borders.
    I think there is a fundamental responsibility of working in 
partnership between the administration and the Congress. Just 
giving money to an agency without proper oversight and 
accountability is not the answer.
    You and I, Mr. Chairman, at a meeting saw where the 
contractor that got the virtual fence funding was trying to 
load up the Border Patrol with stuff they didn't need--overly 
complicated. All they need is a basic Chevrolet on the border, 
and they are being given a Cadillac or BMW or something else 
that really is not the answer.
    I think there has to be a fundamental strategy, as you have 
discussed many, many times, to our border security.
    Mr. Thompson. Thank you very much.
    I yield back.
    Ms. Sanchez. I thank the Chairman.
    Mr. Reyes, I just have a follow-up question. You and I both 
serve on the Armed Services Committee. Being part of this 
committee, of course, I am very close to my law enforcement up 
and down the State of California.
    One of the things we see is that we have a hard time 
finding new people who qualify, pass, get through the academy, 
even can enter the academy, these police academies we have. 
What we see is one department stealing from another, a lot of 
lateral transfers.
    What we see in the military is that we have lowered our 
standards in recruiting, whether it is we have some felons now 
in the military, whether it is drug addiction, whether it is 
broader age group, physical standards lowered, et cetera.
    They are also competing for the same type of person who 
would enter into the Border Patrol or my sky marshals or dozens 
of other law enforcement that we have got going around the 
country.
    So are you seeing that also in Texas? Are you seeing that 
also, when you are looking at your intelligence work, and you 
are talking to law enforcement? Do you see the same thing I do, 
that how we find really new people to enter into law 
enforcement is one of the biggest problems we have versus just 
offering bonuses?
    What I see is the price being driven up between one local 
agency to the next, because they are offering bonuses to take 
people from one department to the other.
    Mr. Reyes. That certainly is a challenge, maintaining the 
standards while at the same time--and I know you are going to 
have Chief Aguilar in the next panel, I believe--so I hope 
somebody asks him the question about the limitations to being 
able to shove X number of agents down the throats of any 
agency, because you have got to be careful and maintain a ratio 
of experience to trainee agents.
    These are some of the most challenging jobs in law 
enforcement, because they work independently in remote areas. 
But it is a recruitment issue. It is the ability of DHS putting 
together a task force that can go out to the different parts of 
the country and do the recruit for the Border Patrol, for CBP, 
for any effort like that.
    One solution that we are looking at and urging is to look 
at some of these wounded veterans coming out of the Iraqi and 
Afghanistan theater, who are very capable of doing support jobs 
that are able to dispatch agents and do the kinds of work that 
free up agents to actually work on the line.
    But there are solutions out there. It is not rocket 
science. We just need to get somebody that can focus and put 
together a strategy that will work. It is a huge country. This 
is a time where the economy is shrinking, and there ought to be 
plenty of people out there that would be interested in very 
good paying jobs in DHS in many different capacities.
    Ms. Sanchez. Thank you, Mr. Reyes.
    I now recognize my good friend from Florida, Mr. Bilirakis, 
for 5 minutes.
    Mr. Bilirakis. Thank you, Madam Chairwoman, and thank you 
for leading the delegation, along with Chairwoman Jackson Lee 
and Chairman Carney, to the southwest border. Very informative, 
very productive. Thanks so much.
    I also want to congratulate Congressman Shuler for putting 
together a bipartisan border security bill that, in my opinion, 
will greatly improve both our frontline border defenses and 
interior enforcement, which I believe is a necessary 
prerequisite to gaining operational control over the borders.
    This question is for the entire panel, if they wish to 
answer. Do you believe that the failure to remove incentives 
for illegal immigration, such as birthright citizenship, the 
promise of jobs and the prospect for amnesty, undermine our 
border security efforts?
    Congressman Shuler, please.
    Mr. Shuler. I think we will continue to see an increase of 
illegals coming across the border, based upon, quite frankly, 
the three people who have been running for president of the 
United States.
    If you look at all their issues, whether it be McCain's 
bill or how Obama or Clinton has stood on those issues, and 
then the lack there of this Congress to actually promote 
something to actually have enforcement and security on our 
borders, I think we will continue to see an increase.
    We are at 6,000 people crossing our borders every day. I 
think it will continue to increase until we put a stop to it. I 
think the more opportunities that--the longer we wait, the more 
increase we are going to have.
    Mr. Bilirakis. Anyone else like to address that?
    Ms. Brown-Waite. I think until we get absolutely serious 
about doing something about illegal immigration, such as saying 
to cities that are sanctuary cities that they are going to have 
a cut in their DHS funding, along with taking away that 
attraction of the employer not verifying appropriately the 
status of the person applying for a job, those things, I think, 
will go a long way.
    I support Representative Shuler's bill. I think it is a 
great, great bill. We also have a problem, because the 
verification system is about to expire in November, that is 
currently in this bill. So I know that there are some people 
who, like other pieces of legislation, have objections to it. 
Worst-case scenario, we don't want to be without that 
verification system.
    Mr. Bilbray. Congressman, we don't want to continue to give 
tax deductions to employers who are hiring people illegally. 
Mr. Shuler's bill just says, ``From now on, we are not going to 
give you a tax deduction,'' which some people have estimated to 
be $44 billion.
    This is the kind of thing that has got people with us not 
doing something here in Washington, while we are dedicating 
Watermelon Month.
    Mr. Bilirakis. Anyone want to address the issue of amnesty?
    Mr. Shuler. Madam Chairwoman, if I may----
    Ms. Sanchez. Mr. Bilirakis, I remind you that this 
committee does not have jurisdiction with respect to----
    Mr. Bilirakis. Madam Chairman, this bill has referred to 
our committee. We can discuss the bill. Ultimately, the 
legislative portion of the bill is subdivided between different 
committees, but this bill has been referred to our committee, 
and we can discuss the bill that has been referred to our 
committee.
    Ms. Sanchez. But amnesty was not discussed in this bill.
    Mr. Souder.
    Mr. Bilirakis. I will proceed with the next question.
    Congressman Bilbray, I want to thank you for your work as 
chairman of the Immigration Reform Caucus and your commitment 
to stopping illegal immigration.
    Given your expertise in this area, do you believe that we 
can have an orderly and enforceable temporary worker guest 
program--several programs--in the absence of true border patrol 
and the ability to determine whether those entering our country 
are leaving when they are supposed to?
    Mr. Bilbray. Sadly, no. I strongly support a true temporary 
work program, especially for ag. But the key is that you have 
got to stop illegal employment, or people are going to come 
here to pick our strawberries, take a look at the fact that 
drywall pays more, and shift over.
    So it is essential that before we can put together a 
viable, true temporary work program that is not a formula for 
amnesty is the fact is that we can do it, but we have got to 
build on a foundation of true enforcement. That was part of the 
1986 bill that never fulfilled its promise to the American 
people.
    But we can do this, and I look forward to working with both 
Democrats and Republicans, of having a program so people come 
here, work, and go home--what they want to do. We will build a 
middle class in Latin America, rather than draining their 
brightest and hardest working.
    We are able to cooperate with our neighbors to the north 
and the south, but it means we have to have employer 
verification. I strongly support Mr. Reyes' upgrade of the 
Social Security card, which doesn't even come up to the REAL ID 
standards that we set for States. But that has got to be the 
foundation, if we are going to make a temporary guest worker 
program work, Congressman.
    Mr. Bilirakis. Thank you.
    I know my time has expired. Thank you, Madam Chairwoman.
    Mr. Souder. Madam Chairwoman.
    Ms. Sanchez. Yes.
    Mr. Souder. I think it is important that we establish that 
as a border committee deals with enforced borders and 
terrorism, that we are allowed to ask questions that we think 
impact the border, such as amnesty and other types of things, 
because clearly policy decisions of the United States impact 
our ability to control borders and port security.
    Ms. Sanchez. I would say to the gentleman that we are 
trying to do as much as latitude as possible in this. However, 
as you know, this is our eleventh subcommittee hearing----
    Mr. Souder. It is not appropriate for you to micromanage 
the questions of members.
    Ms. Sanchez [continuing]. With respect to the border. I 
think this issue of staffing, which is the focus of this 
hearing, is an important one. I think we agree on that. To the 
extent possible, I really don't want to get bogged down in an 
amnesty discussion, quite frankly, in this committee, where it 
really doesn't fall under our jurisdiction.
    I really would like to hear what the panelists have to say 
about that which we can work--I am trying to work toward a bill 
that would come out of this committee that would hopefully have 
some of these good ideas embodied in them.
    I yield to the gentlewoman from California, Ms. Lofgren, 
who, by the way, is a member of the Judiciary Committee, which 
has much of the jurisdiction you all are talking about.
    Ms. Lofgren. I appreciate that. I did want to raise the 
point that the jurisdiction over the formulation of immigration 
laws is within the jurisdiction of the Judiciary Committee. We 
have been very careful on the Judiciary Committee not to wander 
into the jurisdiction of this subcommittee, and I appreciate 
your reciprocity on that point.
    In fact, there are very strong views on the Immigration 
Subcommittee. Mr. Steven King is the Ranking Member, and a 
member of Mr. Bilbray's immigration caucus, so there is no need 
to worry that viewpoints will not be adequately expressed in 
that subcommittee.
    I mention this now just because I am so eager--I obviously 
appreciate our colleagues being here. I don't want to ask them 
a lot of questions. I am so eager to hear from the head of the 
Border Patrol, who is waiting in the audience.
    I am hoping that we can quickly get to him, because he 
obviously wants to talk to us, but he has a big job to do. We 
don't want to keep him here all day.
    So I thank the gentlelady from California.
    Ms. Sanchez. I recognize Ms. Harman for her 5 minutes.
    Ms. Harman. Thank you, Madam Chairwoman. After the comment 
of Ms. Lofgren, I feel slightly guilty about taking a few 
minutes. But I do think it is important to interact with our 
colleagues, who have come well prepared to discuss border 
issues and are authoring important legislation and are taking 
questions from this committee.
    In my experience in seven terms in Congress, this is the 
first time I have been at a hearing where we could ask our own 
members questions. I applaud you for doing this.
    It showcases the fact that we have a lot of competence in 
Congress--sometimes that is overlooked--and that on a 
bipartisan basis, people care intensely about tough issues like 
this. So I applaud you for the format of this hearing.
    Let me agree with Chairman Thompson's opening remarks. He 
says one size does not fit all. We need a comprehensive 
approach. It is certainly true that this committee does not 
have jurisdiction over a comprehensive approach, but I happen 
to support that, and I support the legislation that Ms. Lofgren 
has been pursuing in the Judiciary Committee.
    I would hope that the Judiciary Committee might have a 
panel of our colleagues, who would address some of the issues 
that members want answers to. Our colleagues should be active 
in this kind of format. I think it is good for Congress to do 
this.
    Let me make a couple of other points. As the daughter of 
immigrants whose parents were the first in their families to go 
to college, I surely understand, as I think most Members do, 
the value of immigration to our country.
    The point is to encourage immigration that is lawful. We 
want a diverse country. We benefit from it. Some of the Members 
on the committee and some of the members on the panel are 
immigrants or the children of immigrants themselves, and we 
value them as Members of Congress.
    So let us not lose sight of this. Let us not demagogue this 
issue. Let us solve some of the problems around immigration. We 
need to remind ourselves of that, because I think the message 
all of us want to send is that we welcome diversity in this 
country, and America is a land of immigrants. I hadn't heard 
that mentioned this morning.
    Let me also say, as many members have said, that this is 
not just a southern border problem, and it is not just a 
northern border problem. It is a coastal border problem, too.
    As one who represents a coastal border in California, I 
know that the absence of adequate customs officers, for 
example, is creating huge backlogs when people from foreign 
countries arrive at LAX, the international airport which my 
district surrounds.
    LAX has twice been an intended target of attacks by Al-
Qaeda, and it surely is not a good thing to have huge lines of 
people trying to get through customs into the airport into Los 
Angeles, or to have aircraft on the airfield waiting to unload 
passengers. This is just an invitation for disaster.
    So I strongly support what Congressman Reyes is trying to 
do, which is to get more resources so that problems like this 
can be addressed.
    Let me say further, though, that when we think about this, 
we need a strategy. It is not just that everyone trying to 
cross the border illegally is an equal problem.
    I suggest we need a strategy, and this is my one question I 
want to ask, that prioritizes who we are looking for, that 
prioritizes people who are potential terrorists, people who are 
drug traffickers and are otherwise abusing other people.
    No one has mentioned that issue, and I would just like to 
ask the panel whether you agree that there is a strategy we 
have to apply here in making certain that we make our resources 
and our efforts as effective as possible along our borders.
    Mr. Bilbray. Congresswoman, I think anybody who has worked 
at the border will understand. When somebody is crossing the 
border illegally, there is no way of really being able to 
differentiate those who are coming here just for illegal 
employment or those who are here just carrying a satchel full 
of drugs, which is a major problem--the cartels use illegals as 
their mules.
    Or that satchel may not be of drugs. It may be some kind of 
weapon of mass destruction--that ability to separate these, 
that a tunnel that is dug for illegal immigration is also used 
for drug smuggling and can be used for terrorism, so the 
problem--I understand your thread and the challenge--but it is 
tough at the border to separate those.
    Mr. Reyes. If I can add, there should be a national 
strategy of border management. You cannot hope to seal the 
border, whether it is coastal, whether it is north or south.
    From my experience, if we can manage the border at 85 
percent success, I think we are able to do exactly what your 
question asks, and that is better prioritize those that would 
be coming in here to do us harm or bringing in something, 
whether it is narcotics, WMD or anything else, that ultimately 
would be harmful to our country.
    That is why we have to cry out for a national strategy that 
gets us there, both in between the ports of entry and the ports 
of entry, the airports and the embassy ports, and, of course, 
the interior.
    Ms. Harman. Madam Chair, my time has expired, and I don't 
want to abuse the time of others.
    If anyone has an urgent comment, I would ask your----
    Ms. Sanchez. Ms. Giffords for a few minutes. We are 
expecting a vote on the floor, so I am trying to get everybody 
in, hopefully, so that by the time we return from the floor, we 
can get to the second panel.
    So, Ms. Giffords, but if you would be quick.
    Ms. Giffords. Madam Chair, Congresswoman Harman, briefly as 
I stated earlier, over 380,000 people were apprehended in the 
Tucson sector of the Border Patrol in 1 year. From October 1 to 
about a month ago, we were at over 180,000 people. The vast 
majority--80 percent-plus--are coming here to work to feed 
their families.
    If we can take care of the visa situation to pull those 
people off from crossing through the deserts, through the 
tractor-trailers, the semis, it is going to be a huge dent into 
this problem.
    To figure out that guest worker program, get those people 
to work legally and safely and return back to their home 
country, it would free up the Border Patrol, free up Customs to 
do the work that they are really supposed to be doing. Thank 
you.
    Ms. Sanchez. I will now recognize for 5 minutes for 
questioning, Mr. Reichert of Washington State.
    Mr. Reichert. Thank you, Madam Chair.
    I appreciate all of you being here. I am anxious to ask 
some questions. I want to make a couple of quick comments.
    First, I hope--anyway, most of you know my previous life 
here before coming here was as a sheriff in Seattle, 33 years 
in law enforcement. I know the frustrations and the heartaches 
and the headaches of trying to recruit people. I agree with Mr. 
Reyes there needs to be a strong recruitment in place to 
attract great candidates.
    Sheriffs and police chiefs across the country are competing 
for the same pool as our men and women who serve in our armed 
forces. We don't lower our standards to hire drug addicts and 
criminals into our sheriff's office, and I don't know of others 
that do that, and I am sure that the Border Patrol does not do 
that.
    The heart of a servant, really, is what we are looking for 
when we hire people into law enforcement fields--people who 
want to serve our country and know the dangers that they place 
themselves in, when they serve our country's police departments 
and law enforcement agencies across this Nation.
    I salute the chief here, who is present today.
    Mr. Reyes, for your past service also, and thank you so 
much.
    I want to focus a little bit on the--also, I just want to 
make a quick comment, too. You are exactly right on the 
borders. We can manage them, but we are never going to seal 
them off.
    It is like preventing a burglar from getting into your 
house. We can do all we can to come and assess and give you 
advice on how you might want to secure you home, but guess 
what? If the crook wants in, the crook is going to get in.
    So we can only do the best that we can and know that some 
people are going to violate the law.
    I heard some concerns, Mr. Shuler, from employers that this 
SAVE Act will create some concerns around litigation against 
employers. Would you agree that the inclusion of a good 
liability protection language for employers, who are required 
to use government systems, should be a part of any electronic 
verification system?
    Mr. Shuler. Absolutely. That is why when we wrote the bill 
up, similarly the people that we talked to--the employers--had 
a very difficult time distinguishing between the documentation 
that they received and almost being document experts. If they 
received, and they thought the information was correct, they 
could still have that liability placed upon them, if they hired 
someone illegally.
    So going through E-Verify totally takes the liability off 
the employer. Once they use the E-Verify program, they go 
through, and they get the match correctly, it is a printed out 
piece of paper. Or it is actually mailed in or sent in from E-
Verify that they have a hard copy, so if they are then checked 
to see if that person is here legally--and the error rate is 
0.5 percent error rate on E-Verify--so it does take out the 
liability concerns from the employer's standpoint.
    Mr. Reichert. Would you agree, too, if employers can't 
verify, would that not then encourage people to continue to 
cross the border?
    Mr. Shuler. Absolutely.
    Mr. Reichert. Would that not create more illegal immigrants 
in the United States? Would not that be some sort of form of 
amnesty and create a huge problem for the chief, as far as 
resources and managing those people then?
    Mr. Shuler. Absolutely. I think that, as so many people 
have indicated, 80 percent--and I think it is more than 80 
percent--of the people here are coming for work. So we have to 
cut up the job magnet. If we cut the job magnet up--we are 
talking about how to secure the borders and all this--we have 
to start with the jobs first.
    So if you are having to deal with only 10 percent of the 
people coming across the border because of coming here for 
jobs, then we don't have to spend the millions and billions of 
dollars that we are spending, and we may not have to spend the 
amount of time and resources to be able to hire the people that 
are protecting our----
    Mr. Reichert. So the E-Verify system, then, really is 
trying to address the amnesty issue, right?
    Mr. Shuler. Yes, it sure is.
    Ms. Giffords. Mr. Chairman, can I jump in for a second?
    I come from Arizona, the State that now requires 100 
percent participation for E-Verify. We had a hearing last week 
in the Ways and Means Committee, where we had employers coming 
out from Arizona. We had a lot of testimony on that.
    This is not the place to get into it, but there are some 
real issues with E-Verify in the State of Arizona, when people 
are actually required to do it. So I want to make sure that you 
look at that testimony before----
    Mr. Reichert. One last question real quick here. My time is 
flying by, too. How can DHS ensure that employers will not 
illegally pre-screen workers? That has been a concern, too, 
that has been presented.
    Mr. Shuler. Well, because E-Verify under the mandate would 
actually be not used as a tool of hiring someone. After a 
person hired, then they go through the E-Verify system. At that 
point in time, they receive a match. If they do not receive a 
confirmation of a match, then they continue to still be 
employed, and over the time period, they actually request----
    Ms. Sanchez. The gentleman's time is up.
    Mr. Reichert. Okay.
    Mr. Shuler. Doesn't pertain to the committee.
    Ms. Sanchez. Mr. Cuellar? No.
    Mr. Rogers? No.
    Ms. Jackson Lee?
    Ms. Lofgren, for 5 minutes.
    Ms. Lofgren. Thank you, Madam Chairwoman. I will try not to 
use 5 minutes. I just know that I appreciate every one of these 
Members being here. Clearly, they care very much about our 
country, have worked hard to put together what might be part of 
an answer.
    As was mentioned by our colleague from Washington, there 
are some problems. It is impossible, as he has noted, to seal 
off completely the entire borders of the United States. That 
includes both sea coasts, a very long land border with Canada, 
as well as the southern border.
    So I think it is important, as we discuss the subject that 
is important to the country, that we not lead the country to 
believe that anybody in any party could accomplish the 
impossible. What we need to do is have a management system that 
works much better than it does.
    I want to especially raise two issues, maybe three. First 
is the matter of priorities.
    I listened to you, Congressman Shuler, and we have talked 
about this before--the frustration that your citizens have, 
that you have got a meth dealer in the jail, and when we have a 
discussion about whether the busboy should be deported, nobody 
is arguing that the meth dealer should be deported. You can't 
get ICE to pick them up.
    In the appropriations bill this year, the bill in December, 
we put together guidance for ICE, suggesting that there are 
priorities. We don't have limitless resources, so the top 
priority for ICE ought to be going to the jails and picking up 
the people who have been convicted of serious crimes and 
booting those guys out.
    I think that is an area where we all agree, and yet we 
can't make them do that, because the easy hit for them is to go 
round up some nursing mothers in a field. It is numbers, but we 
have still got the meth dealers sitting in your jail and maybe 
being released.
    We have already put the priority in the order in. I don't 
know that it is a legislative problem. It is an administrative 
problem in that they are not doing the smart thing, and they 
are also not following the instructions of Congress.
    I want to talk about computer systems, and maybe I can ask 
Mr. Reyes.
    The 9/11 hijackers, for the most part, were not admissible 
to the United States when they came and presented themselves 
for entry. They were not admissible, except that the officer 
who interviewed them didn't know that and could not know it, 
because the evidence of their inadmissibility was on a piece of 
microfiche in a bucket in Georgia, waiting to be input into a 
computer system.
    So I have been after both ICE and USCIS to upgrade. In your 
judgment, do any of these bills, or any of the efforts we have 
made, really move that effort forward? You are an expert in 
this, Mr. Reyes.
    Mr. Reyes. Again, you have to go back to making sure we 
have got the leadership at DHS that fundamentally does two 
things: first, recognizes or assesses where we are, and second, 
where Congress wants them to be, and then is able to articulate 
if you want to be at Point X, this is what we are going to have 
to have.
    Ms. Lofgren. It is a competence issue, really.
    Mr. Reyes. I get so frustrated----
    Ms. Lofgren. So do I.
    Mr. Reyes [continuing]. By so many experts that--you know, 
this is not rocket science. It just takes people that 
understand the system, understand the challenges, and are 
willing to put together a strategy.
    Ms. Lofgren. I wanted to follow up just briefly the comment 
you made on hiring returning warriors, some who have now 
disabilities, but it doesn't mean that they couldn't monitor 
computer efforts and do the like.
    A big impediment I have heard--and you know better than 
me--to hiring in the Border Patrols, oftentimes these are 
remote locations. This is a hard job. Even if you are not out 
in the field with the harsh conditions, it involves relocating 
to a border community away from family and the like.
    We have call centers in Iowa for tech companies in 
California. There is no reason why you couldn't have whole 
units to do the remote computer stuff. Would you suggest that 
we move in that direction, based on your experience, to just 
take some off the load off of the recruitment drag?
    Mr. Reyes. You and I have discussed many times there is no 
excuse for the long waiting list of people that are trying to 
naturalize to become citizens.
    Ms. Lofgren. Right.
    Mr. Reyes. CIS has to do a better job. That is a perfect 
example of where wounded warriors would fit in perfectly, 
because they would be in the major cities. They would be in 
major processing centers that would require computer skills 
that can be taught to wounded warriors and would facilitate 
those huge backlogs.
    It is not a priority. It is not part of the strategy. It is 
part of what feeds the frustration against DHS.
    Ms. Lofgren. My time has expired, even though I didn't mean 
to use it all, Madam Chair. Thank you.
    Ms. Sanchez. You are welcome, Ms. Lofgren.
    I now recognize Mr. Green for 5 minutes.
    Mr. Green. Thank you, Madam Chairwoman.
    I thank the Ranking Member as well.
    I thank my colleagues.
    I must confess that I am impressed with the depth and 
breadth of knowledge that has been shared with us today.
    I do have a caveat that I would like to share, and it is 
that we must be exceedingly careful, assuming that we do 100 
percent of what we desire to do, we must be exceedingly 
careful--exceedingly so--such that we do not create a false 
sense of security, a false sense of security.
    We have to make sure that we don't create in the minds of 
the public that this fence is going to secure this country. We 
have to understand that the southern border is really the 
Virgin Islands. We have to understand that the northern border 
poses challenges that we are not addressing.
    We cannot create a false sense of security, as we construct 
or think along the southern border, the border with the United 
States and Mexico.
    I am concerned about the lack of a plan that addresses all 
of the issues associated with border security, as opposed to 
some of the issues associated with border security. I think 
that when we take a piecemeal approach, we will get a piecemeal 
result.
    Piecemeal results can have unintended consequences. An 
overall plan can address the consequences that we may not be 
considering.
    If we seal the border between the United States and 
Mexico--that we have some control over it, greater control--we 
have to ask ourselves how will this impact other points of 
entry into this country and be prepared to deal with the impact 
that it will have on other points of entry into the country.
    If we don't prepare ourselves for those other points of 
entry into the country, we will find ourselves again trying to 
respond, as opposed to having acted timely. I would invite 
colleagues to respond tersely, if you would, to what I have 
stated.
    I see one colleague is ready, so I will yield to you, sir.
    Mr. Bilbray. Congressman, I, for one, am going down to 
Mexico the first week of June. If there is something I can tell 
you about if you are waiting for the perfect answer, I worked 
on border pollution problems. Everybody kept saying, ``But it 
won't solve the whole problem to do this.''
    We have been able to make great leaps in the last 20 years 
of working on pollution and environmental problems at the 
border by doing what we can where we can when we can, and not 
finding excuses to walk around or to avoid addressing issues 
where you can.
    I am going south next month for a big reason. The border is 
so violent now, Congressman, people are being killed on both 
sides of the border. Law enforcement officers in Mexico are 
being slaughtered. There are gunfights going on.
    The degree of urgency in Washington, DC, both Republican 
and Democrats--and I will tell you, I am taking on my 
Republican colleagues about the fact that I hope they care 
enough about helping Mexico fight this problem and secure their 
border----
    Mr. Green. Reclaiming my time, because I only have 34 
seconds left, I concur with everything that you have said. But 
it does not cause me to conclude that we must not convey a 
message that this is going to secure the United States of 
America----
    Mr. Bilbray. We need to----
    Ms. Giffords [continuing]. And that, that--listen now; I am 
reclaiming my time--that is what you have to concern yourself 
with, too. We are talking about securing the United States of 
America. We are not talking about just the border between the 
United States and Mexico, and we don't want to create a false 
of security in so doing.
    Ms. Sanchez. The gentleman's time has expired.
    I now recognize the gentleman from Rhode Island, Mr. 
Langevin, for 5 minutes.
    Mr. Langevin. Thank you, Madam Chair, and I want to thank 
you for organizing this hearing.
    It certainly speaks to your commitment, as does it speak to 
the commitment of the Members who are testifying here today 
about the importance they place on immigration reform and also 
strengthening our security, which will obviously have to be a 
part of any immigration reform bill.
    So thank you all for the work that you are doing.
    I have a couple of questions for Chairman Reyes and also 
for Representative Shuler.
    Chairman, as chairman of the Intelligence Committee, I know 
how hard you work every day, day in and day out, to make sure 
that we strengthen the national security of the United States. 
I am proud to serve with you on the Intelligence Committee.
    With respect to ports of entry, our ports of entry are 
grossly understaffed, which leads to longer wait times at our 
borders and affects the ability of our CBP officers to 
effectively carry out their border security mission. The ports 
actually require CBP to hire at least 5,000 CBP officers and 
1,200 agriculture specialists over the next 5 years.
    What type of CBP staffing shortages have you seen at the El 
Paso ports of entry? What have been the consequences of 
understaffing at the El Paso ports of entry? How did you 
determine the staffing numbers required by the bill?
    Additionally, as a former Border Patrol sector chief, you 
are clearly in a very unique position to share with us your 
first-hand experience in securing America's borders.
    Looking at the different border security programs that the 
administration has proposed and are involved with, and 
proposals in Congress, what should the next administration's 
first priority be to get the border security right, such as E-
Verify, sensing, virtual fencing, or worksite enforcement--if 
you could talk to those two?
    For Representative Shuler, in my role on the House 
Intelligence Committee, as well as the chairman of the Emerging 
Threats Subcommittee on this committee, I spend a lot of time 
being concerned about terrorists smuggling in a nuclear device 
or weapons-grade nuclear material or radiological material.
    According to a recent GAO investigation that determined a 
cross-border violator would likely be able to bring radioactive 
materials or other contraband undetected into the United States 
by crossing the U.S.-Canada border, what I wanted to ask you is 
does the SAVE Act address any of the vulnerabilities that our 
Nation faces along the northern border?
    Do you agree that the northern border is equally 
susceptible to entry by terrorists and others wishing to do us 
harm?
    I know the time is short, so if I could start with Chairman 
Reyes, and then we will go to Representative Shuler.
    Mr. Reyes. Thank you very much. I will answer your three 
questions quickly.
    First of all, in El Paso, as I commented earlier, there 
exists a vacancy ratio of between 30 and 38 percent, which 
leads to longer waiting times, morale problems and detrimental 
to the trade and commerce that has to come through those ports 
of entry.
    Second, the 5,000 figure of additional CBP officers and 
1,200 agricultural specialists and 350 support positions were 
included in the first legislation as a result of about 9 
months' worth of work and consultation with DHS and my former 
colleagues to improve not just staffing, but the infrastructure 
system--and I might also add consultation with GSA, who has the 
responsibility for that infrastructure.
    Third, as to what should the next administration do? I 
think priority No. 1 in security, in terms of homeland 
security, is make sure that a DHS secretary has a clear 
understanding, and preferably experience, in the issues facing 
our country in homeland security and has to come up with a 
national strategy that addresses all of these issues that your 
committee has been working on and that we have all collectively 
been expressing our concerns about.
    Thank you.
    Mr. Langevin. Thank you, Chairman.
    Representative Shuler.
    Mr. Shuler. The SAVE Act, H.R. 4088, will increase northern 
Border Patrol agents from 800 to 2,000.
    But I think the most important thing to recognize is 
through the new technologies, and the funding through new 
technologies--the drones, the satellite surveillance because of 
the vast distance of our northern border, that distance--that 
is obviously be very, very porous, because we won't have enough 
manpower.
    The reason why most of the Border Patrol agents increase 
has been to our southern border is because of the numbers of 
trafficking that is coming across our southern border.
    So, obviously, I think we all recognize the importance of 
being able to protect both our northern and our southern 
border. The SAVE Act was actually endorsed by the Northern 
Border Caucus, and Mr. Stupak as well.
    Mr. Langevin. Thank you.
    I yield back.
    Ms. Sanchez. The gentleman's time has expired.
    I now recognize Ms. Jackson Lee for 5 minutes.
    I will remind everybody that we have votes on the floor--
three of them. We will take Ms. Jackson Lee's 5 minutes, 
dismiss this panel, go and vote, and return thereafter from 
recess with the second panel.
    Ms. Jackson Lee for 5 minutes.
    Ms. Jackson Lee. Madam Chairwoman, let me thank you very 
much.
    Let me thank the witnesses very much for their insight and 
interest in this very important issue.
    I would like to include in the record bill H.R. 4044, 
called the Rapid Response Border Protection Act of 2005. It is 
a bill that is being updated. I ask unanimous consent to submit 
that into the record.
    Ms. Sanchez. Without objection.*
---------------------------------------------------------------------------
    * The bill is publicly available and has been retained in committee 
files.
---------------------------------------------------------------------------
    Ms. Jackson Lee. Thank you.
    Chairman Reyes, it was one that we joined together on, and 
let me thank you for the leadership on your legislation.
    But let me suggest that we took, for example, the large 
majority of the Members' bills, and I will ask pointed 
questions, and then added a component that dealt with--outside 
the jurisdiction of this committee, but just say that we 
handled the security, but then handled the benefits.
    Would that, from a Border Patrol officer's perspective, be 
an effective tool in which to really handle some of the crisis 
issues at the border, which is human trafficking and narcotics?
    Mr. Reyes. As it relates to your legislation that we 
discussed?
    Ms. Jackson Lee. If we took some of the legislation that is 
being presented to us today that deal with security, but then 
added the benefits part, which is not in the jurisdiction of 
this committee, but gave access to legalization from a Border 
Patrol agent, since you have experience of being at the border, 
would that be an effective approach in security and another 
component?
    Mr. Reyes. Absolutely.
    Ms. Jackson Lee. So as a law officer, you are telling us 
that, for example, the barrier that is now at the Tucson border 
that we visited--I understand it cost $4.5 million per mile, 
and we have 7.5 miles--that that barrier focus on, even if we 
passed your legislation that provides us a reinforcement at our 
ports of entry--very important; I have been through a good 
number of them--we still need another component. Is that 
accurate?
    Mr. Reyes. Absolutely. I agree with the comments that 
Congressman Bilbray has made in terms of a comprehensive 
approach with interior enforcement.
    Ms. Jackson Lee. How poorly staffed do you believe our 
ports of entry are? How much of a crisis do we face in not 
moving forward on your legislation dealing with infrastructure?
    Mr. Reyes. Well, the lack of staffing is affecting 
efficiency and morale and our ability to promote trade and 
commerce through the ports of entry. On a national average, it 
is between 30 and 38 percent vacancy.
    Congresswoman Brown-Waite, I, too, would like to pose the 
question. You have a very stiff initiative, because I believe 
that what you might wind up doing is making 6-year-olds felons, 
teenagers felons. I understand the impact or the thought behind 
it.
    My question to you would be: Would you welcome a 
modification of your legislation, if it parallels--again, 
outside of our jurisdiction, because what you are talking 
about, you have a component in there that talks about 
individuals inside the country that relate to ICE internal 
enforcement.
    Would you be willing to have a component of a process of 
documentation for those who are here, and then the enactment of 
your bill thereafter? Or would your bill move immediately now, 
which means that teenagers who are in high school, who have 
been here all of their life, could be established as felons?
    Ms. Brown-Waite. Representative, I believe what you are 
talking about is amnesty for those who are here. Am I correct?
    Ms. Jackson Lee. No. What I am talking about is a pathway 
to legalization. But we can get into the--you might be opposed 
to amnesty. I just want to answer the specific question. I am 
not labeling it and wouldn't want you to commit to that.
    But would you look to a process of legalization, and then 
to look to your legislation, which says anyone that didn't get 
in line certainly is here unstatused and could be held as a 
felon?
    Ms. Brown-Waite. I would have to look at the language of 
it. I honestly cannot commit now. I would have to look at the 
language, because I can tell you that in not just my district, 
but so many districts, what they want is they want to make sure 
that illegal aliens--and as you know, right now it is not a 
felony, but rather a misdemeanor--they want to make sure that 
the law is tough. So I would have to look at the language.
    Ms. Jackson Lee. I thank you.
    Ms. Brown-Waite. I have never committed to anything without 
reading the language.
    Ms. Jackson Lee. I appreciate it.
    Madam Chair, let me just end by thanking the Members and 
simply saying that border security, as you have offered today, 
is crucial, but we frankly cannot exist with a situation of 
making hard-working taxpaying individuals felons. So securing 
the border is crucial, but we must have another component of 
comprehensive immigration reform.
    I yield back.
    Ms. Sanchez. Thank you, Ms. Jackson Lee--also, obviously, a 
Member of the Judiciary Committee, because she has a lot of 
knowledge with respect to some of the issues which really don't 
touch our committee.
    I would like to at this time dismiss the panel. Thank you 
for your testimony and for your answers to our questions. If 
there are more questions from our Members, or Members who 
weren't able to, that will be submitted in writing.
    The committee stands in recess until about 15 minutes after 
the last vote.
    For those on the second panel, that would be about 30 
minutes from now.
    [Recess.]
    Ms. Sanchez. The committee is back in session, and I 
welcome the second panel of our witnesses.
    Our first witness, Mr. Thomas Winkowski, was appointed 
assistant commissioner, Office of Field Operations, at U.S. 
Customs and Border Protection in August 2007. In that capacity 
he directs the activities of 24,000 employees and oversees 
programs and operations at field offices, ports of entry, 
container security initiative ports and pre-clearance stations.
    Our second witness is Mr. David Aguilar, who became chief 
of the U.S. Border Patrol on July 1, 2004. Before his 
appointment, he was the chief patrol agent of Border Patrol's 
Tucson sector. Chief Aguilar began his Border Patrol service in 
June, 1978 in Laredo, Texas.
    Our final witness, Major General Michael C. Kostelnik, USAF 
retired, is assistant commissioner of the Office of CBP Air and 
Marine. In that capacity he is responsible for approximately 
550 pilots, 270 aircraft and 200 vessels. Before coming to CBP, 
the general served on active duty with the U.S. Air Force for 
32 years.
    So without objection, we will put the full statements into 
the record. I am told that the three of you are going to sort 
of do a tag team here.
    We will start with Mr. Winkowski, please.

   STATEMENT OF THOMAS S. WINKOWSKI, ASSISTANT COMMISSIONER, 
OFFICE OF FIELD OPERATIONS, U.S. CUSTOMS AND BORDER PROTECTION, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Winkowski. Thank you. Good afternoon, Chairwoman, 
Ranking Member Souder and other members of the committee.
    I am pleased to be here today with Chief David Aguilar and 
General Michael Kostelnik, representing the operation offices 
of U.S. Customs and Border protection. I am Tom Winkowski, and 
I am the assistant commissioner for the Office of Field 
Operations.
    CBP employees are highly trained and professional 
personnel, resources and law enforcement authorities to 
discharge our mission of enforcing the laws of the United 
States at our borders. This important work is primarily done at 
official ports of entry, where legal goods and people are 
admitted into the United States, and at the land borders 
between those ports of entry.
    We are responsible for protecting more than 5,000 miles of 
border with Canada, 1,900 miles of border with Mexico, and 
operating 326 points of entry. We station nearly 19,000 
officers at air, land and sea ports, and throughout the world.
    We deploy over 16,000 Border Patrol agents between ports of 
entry to prevent illegal entry. These forces are supplemented 
with air and marine officers, agriculture specialists and other 
professionals.
    On a typical day in fiscal year 2007, Customs and Border 
Protection processed over 1.1 million passengers and 
pedestrians, 70,000 trucks, rail and sea containers, 251,000 
incoming international air passengers, 304,000 incoming 
privately owned vehicles, and assessed over $88 million in 
fees, duties and tariffs.
    At the same time, we seized nearly 7,400 pounds of 
narcotics, made 70 arrests at the ports of entry, and 2,400 
apprehensions between the ports of entry, and seized nearly 
4,300 prohibited meat and plant materials.
    We deploy over 1,200 canine teams, 10,000 vehicles, 267 
aircraft and 175 watercraft.
    In my capacity as the assistant commissioner for the Office 
of Field Operations, I represent the nearly 22,000 uniformed 
CBP officers, agriculture specialists and import specialists 
who work at our Nation's 326 ports of entry.
    In fiscal year 2007, Field Operations processed more than 
414 million pedestrians and passengers, 124 million conveyance, 
30 million trade entries, and examined 5.6 million sea, rail 
and truck containers.
    I know this committee is very familiar with our layered 
approach, and for the sake of time, I will be more than happy 
to answer questions about it, but I am going to skip that part.
    But we are very happy to be here. We feel that this issue 
in securing our borders is extremely important, and we are 
looking forward to testifying today. Thank you.
    [The joint statement of Mr. Winkowski, Mr. Aguilar, and 
Major General Kostelnik follows:]

  Joint Prepared Statement of Thomas Winkowski, David V. Aguilar, and 
                          Michael C. Kostelnik
                              May 22, 2008

    Chairwoman Sanchez, Ranking Member Souder, Members of the 
subcommittee, it is a privilege and an honor to appear before you today 
to discuss the work of U.S. Customs and Border Protection (CBP), 
specifically the tremendous dedication of our men and women in the 
field both at and between our ports of entry.
    We want to begin by expressing our gratitude to the subcommittee 
for the strong support you have shown CBP. Your support has enabled CBP 
to make significant progress in securing our borders and protecting our 
Nation against terrorist threats.
    Our testimony today focuses on border enforcement, and how the men 
and women on the front lines accomplish the goal of achieving control 
of our borders between the official ports of entry. We will also 
discuss our efforts to facilitate legitimate travel at our ports of 
entry. By way of background, CBP employs highly trained and 
professional personnel, resources, and law enforcement authorities to 
discharge our mission of enforcing the laws of the United States at our 
borders. This important work is primarily done at official ports of 
entry where legal goods and people are admitted into the United States 
and at the land borders between those ports of entry. CBP is the 
largest uniformed law enforcement agency in the country. We station 
over 19,000 officers at access points around the Nation--air, land, and 
sea ports--and around the world. We deploy over 16,000 Border Patrol 
agents between ports of entry to prevent illegal entry. These forces 
are supplemented with Air and Marine officers, agricultural specialists 
and other professionals.
    As we work toward gaining control of our borders, we must also 
continue to perform our traditional missions, which include stemming 
the flow of illegal drugs and contraband, protecting our agricultural 
and economic interests from harmful pests and diseases, protecting 
American businesses from theft of their intellectual property, 
violations of textile agreements, import safety violations, the economy 
from monopolistic practices, regulating and facilitating international 
trade, assessing and collecting import duties, and enforcing United 
States trade laws. In fiscal year 2007, CBP processed more than 417 
million pedestrians and passengers, 124 million conveyances, and 30 
million trade entries, examined 5.7 million sea, rail, and truck 
containers, intercepted 877,000 illegal aliens between our ports of 
entry, seized more than 3 million pounds of narcotics and collected 
over $33 billion in revenue.

               BORDER SECURITY BETWEEN THE PORTS OF ENTRY

    On Wednesday, May 28, 2008, the U.S. Border Patrol will celebrate 
its eighty-fourth anniversary. Initially the Border Patrol was within 
the Bureau of Immigration of the Department of Labor, then with the 
Immigration and Naturalization Service within the Department of 
Justice. With the creation of the Department of Homeland Security in 
2003 the Border Patrol moved under U.S. Customs and Border Protection. 
Throughout our history, the Border Patrol Inspectors of the past and 
the Border Patrol Agents of today have served this Nation with honor 
and integrity. From an initial force of only a few Patrol Inspectors in 
El Paso, Texas, the Border Patrol has grown to over 16,000 Border 
Patrol Agents, stationed throughout this Nation's southern, northern, 
and coastal borders. Our agents today perform this mission as they did 
in the past; on foot, in automobiles, by horse, and in watercraft. Over 
the decades we have incorporated new methods, learned different 
techniques, and created an evolution with the overarching mission focus 
on border security.
    A national strategy to establish and maintain effective control of 
our Nation's borders has been brought to fruition. This strategy 
consists of five objectives: (1) Establish a substantial probability of 
apprehending terrorists attempting to illegally enter between ports of 
entry; (2) Deter illegal entries through improved enforcement; (3) 
Detect, apprehend, and deter smugglers of humans, drugs and other 
contraband; (4) Leverage ``Smart Border'' technology to multiply the 
effect of enforcement personnel; and (5) Reduce crime in border 
communities and consequently improve quality of life and economic 
vitality of targeted areas. The national strategy requires increasing 
our national security by augmenting enforcement resources along the 
northern and southern border. The proper balance in the deployment of 
personnel, equipment, intelligence, support, technology, and 
infrastructure is critical. Reducing our vulnerability to the entry of 
terrorists, illegal aliens and drugs by increasing personnel and 
resources, is the key to the successful implementation of this 
strategy.
    The Border Patrol is charged with the protection of the border 
between established Ports of Entry and is guided by our national 
Strategy, which seeks nothing less than operational control of the 
border. With the proper mix of personnel, equipment, intelligence, 
support, technology, and infrastructure, the Border Patrol is dedicated 
to achieving this goal. In the past, agents had to rely on skills, such 
as sign cutting, to track people who had surreptitiously and illegally 
entered the United States. Over time the Border Patrol agents honed 
their skills and while the Patrol added new methodologies to aid them 
in their charge. Support from Air and Marine assets and personnel have 
been and continue to be essential to our mission. The Border Patrol 
then developed and adopted new technologies such as infrared cameras, 
remote video surveillance, and unattended ground sensors which further 
aided us in our mission. In today's 21st century world, the Border 
Patrol has sought to further utilize technology to assist in border 
security.
    The SBI Tactical Infrastructure program is constructing a total of 
370 miles of pedestrian fencing and 300 miles of vehicle fencing along 
the southwest border sectors by the end of calendar year 2008. This 
provides physical infrastructure to areas along the border where such 
infrastructure can be most effective. As of May 16, 2008, 181 miles of 
pedestrian fencing have been built and 145 miles of vehicle fencing are 
now in place.
    We know these efforts to secure our borders are showing 
effectiveness. Apprehensions on the southwest border are down 
approximately 20 percent from the previous year. One important, if 
troubling, measure is the current trend in border violence. As we make 
progress in stemming the flow of illegal aliens, drugs and contraband, 
those who traffic in this illegal activity are becoming more aggressive 
in their efforts. Border Patrol has experienced a consistent increase 
in violence against agents. Fiscal Year 2007 saw the number of 
incidents of violence increase to the highest levels recorded since 
2001. In the first quarter of fiscal year 2008, 300 assaults were 
perpetrated against Border Patrol agents, accounting for a 44 percent 
increase in violence over the same period in fiscal year 2007. We are 
extremely concerned about this persistently high level of attacks.
    While much of our initial focus is on the southwest border, DHS and 
CBP have taken many steps to improve security on the northern border. 
Additional Border Patrol agents have been deployed from the southwest 
border to the northern border, with 1,500 expected by September 2009 
and more than 2,000 agents by 2010. Prior to September 11, 2001, the 
northern border was staffed with only 340 Border Patrol agents. We 
conduct joint operations with the Joint Task Force--North (JTF-N), 
continue pilot maritime technology projects incorporating ground-based 
radar and proof of concept multi-sensor systems, and seek increased 
liaisons with our Canadian partners through Project North Star and the 
Integrated Border Enforcement Teams (IBET). In addition, CBP is 
expanding Air and Marine operations on the northern border, including 
the deployment of Unmanned Aircraft Systems (UAS) such as the Predator.
    To address known as well as potential threats at the northern 
border, we are creating a stronger, more proactive presence at and 
between ports of entry. Eight Border Patrol sectors encompassing 12 
States stretch more than 4,000 miles from the Pacific, across the Rocky 
Mountains, Great Plains, and the Great Lakes, to the Atlantic. To best 
support our efforts, CBP Air and Marine has developed a plan to 
increase security along the northern border through the accelerated 
startup of operations at five locations. By late summer of 2008, Air 
and Marine will have established the following five air wings on the 
northern border: Bellingham, Washington; Plattsburgh, New York; Great 
Falls, Montana; Grand Forks, North Dakota; and Detroit, Michigan. 
Northern border locations were selected to provide an interdiction/law 
enforcement response within 1 hour flight time. In addition, the North 
Dakota Air Branch in Grand Forks was chosen to provide a strategic, 
centrally located air branch at the northern border that will have an 
expanded role, and is currently under review to certify its operational 
readiness for Unmanned Aircraft Systems (UAS) operations.
    With the advent of SBInet and the P-28 proof of concept, the Border 
Patrol took a significant leap forward in accomplishing its mission by 
integrating proven methods with technology and infrastructure. The same 
tracking methods from the past, the technological deployments over the 
years, and new technologies, such as ground surveillance radar, 
unmanned aerial vehicles, and improved sensor capabilities, are the 
future of border security. The paradigm shift today is a compilation of 
data from various sources and the future resides with the Common 
Operation Picture (COP). The COP will now integrate the disparate 
elements from our mission and provide a high-fidelity virtual picture 
of the border world.
    We have learned from the past and continue to improve upon our 
successes. A key element to this was allowing our ground agents to have 
full input into the next generation of border technology. Our agents' 
``feedback,'' which is their real-world and real-time input helps 
determine what is actually required, what will work, and most 
importantly what does not work. This ground-truth is being put to use 
today, building on P-28 with the next phases along Ajo-1 and Tucson-1. 
This new technology will be deployed in the near future and we well 
evaluate each area to deploy the proper mix of technology and 
infrastructure to fill the capability gap.
    CBP has made significant progress in securing our borders between 
the ports of entry. Today, we are detaining 100 percent of Other Than 
Mexican (OTM) aliens apprehended along the southwest and northern 
borders that are subject to detention pending removal and are otherwise 
ineligible for release from custody under U.S. immigration law. This is 
a stark contrast to 2005, when only 34 percent were detained. The 
success of this effort has been primarily based on DHS enhancements in 
additional bed space and the streamlined process for removal of aliens, 
or ``Expedited Removal.''
    Our agents continue to attend a rigorous training academy, 
currently located in Artesia, New Mexico, where they learn immigration, 
nationality and criminal law, and receive defensive techniques 
training, firearms training, and Spanish language training. The academy 
training was modified to better suit today's operating environment. 
Intern Agents now attend a rigorous 55-day academy where they learn the 
basics of the law enforcement profession. Upon successful completion, 
the agents are again tested in the Spanish language. Those agents who 
satisfactorily pass return to their duty station to begin their field 
training and work as Border Patrol Agents. Agents requiring further 
training in Spanish then attend a 40-day, intensive, task-based 
learning course in Spanish. Upon successful completion of this, these 
agents then return to their duty station to begin their field training.
    We continue to improve on the quality and caliber of our agents. 
All of our agents are border patrol agents first and are capable of 
performing the multiple tasks required of an agent. Upon successful 
completion of a few years in service our agents may elect to try out 
for a number of specialty positions. Our canine teams are trained to 
detect both humans and narcotics and are an effective tool at 
immigration checkpoints, as well as in daily operations. The Special 
Response Teams and Tactical Units are specially trained for domestic 
and international emergencies. Our Search, Trauma, and Rescue teams 
provide humanitarian and rescue capabilities, performing countless 
rescues every year. But the one underlying element is that they are 
agents first and any function performed beyond that of an agent 
requires specialized training. This interchangeability of workforce is 
essential for maintaining a united Federal law enforcement entity and 
is key to our defense in depth philosophy.
    The uniform nature of our training and work ethic are essential and 
as principles for our operations. Every agent from the upper management 
to the new agent on the line has had or will have similar experiences, 
leading to an understanding not well understood beyond our ranks. This 
is essential for the integrity of our organization. By having a 
workforce equally trained and broadly experienced, the Border Patrol 
will retain the necessary elements for national emergency call-outs and 
deployments. This was invaluable during the unified efforts with the 
deployment of agents to the relief efforts following the tornados of 
last year, Hurricane Katrina in 2005, the national emergency in 2001, 
the Olympic bombings in 1996, the Krome riots in the 1980's, and the 
civil unrest of the 1960's.
    This interchangeable capability is all the more important with the 
increase in violence we have seen over the past years. We have taken 
steps to mitigate this increase in violence and are better equipped to 
prepare our agents for it. We have deployed the FN-303, a less than 
lethal pepper-ball launcher system; expanded our international outreach 
with the Integrated Border Enforcement Teams on the northern border, 
whose mission is to enhance border integrity and security by 
identifying, investigating and interdicting persons or organizations 
that pose a threat to national security or are engaged in other 
organized criminal activity; expanded the International Liaison Units 
on the southern border, both to improve our diplomatic and 
international relations with Canada and Mexico; and improved our 
intelligence capabilities by detailing agents to the Air and Marine 
Operations Center and to NORAD.
    There is not an easy solution when it comes to border security and 
our agents are dedicated to performing our mission with honor and 
integrity. We will continue to explore new technologies and reassess 
our operational needs to appropriately address the vulnerability gaps. 
The border is a dynamic environment and we strive to meet the 
challenges of today, and tomorrow.

  SECURING OUR BORDERS WHILE FACILITATING LEGITIMATE TRAVEL AND TRADE

    CBP welcomes more than 400 million travelers into the United States 
annually. While security will always be CBP's primary mission--and key 
to maintaining travelers' confidence--we strive to make the process of 
entering the United States more streamlined, user-friendly and 
understandable.
    CBP has worked very hard to improve our process for clearing and 
welcoming travelers into our country. In April 2007 we launched the 
Nation's first ``Model Ports'' at George Bush Houston Intercontinental 
and Washington Dulles International airports. Improved signage, multi-
lingual explanatory videos and modernized procedures ease the process 
of arriving in the U.S. Both Houston and Dulles were chosen as initial 
model ports because they represent key gateway locations in the United 
States as major international hubs, and present unique infrastructure 
challenges and opportunities. In the coming years, the Model Ports 
Program will expand to a total of 20 airports and add 200 CBP officers. 
We believe this program helps to send the message that America remains 
a warm, welcoming nation.
    While CBP seeks programs and improves processes to make 
international travel more welcoming, security will always be CBP's 
primary mission. An important aspect of CBP's security mission involves 
extending security beyond our physical borders. The Immigration 
Advisory Program (IAP) is an important element in this strategy, 
enhancing security by preventing terrorists and other high-risk 
passengers from boarding aircraft destined for the United States. The 
goal of the IAP is to protect air travel and improve national security 
by reducing suspected overseas threats prior to a flight's departure, 
thereby avoiding delaying, canceling, or diverting flights. Small CBP 
officer teams are deployed to work with foreign law enforcement and air 
carriers at key airports in host countries. The IAP program maintains 
deployment at nine foreign locations, adding a layer of enforcement and 
strengthening foreign partnerships while also providing financial 
savings for the U.S. Government and air carriers.
    One important aspect of facilitating legitimate travel involves 
monitoring wait times for travelers at our airports and land border 
ports of entry. CBP's land border ports of entry processed just under 
300 million people in 2007, spending an average of only 45-60 seconds 
with each person at the primary inspection booth. This process yielded 
approximately 20,000 arrests in fiscal year 2007. CBP created a Wait 
Time Advisory Committee that developed recommendations to address 
issues such as wait time measurement standards, processing times, 
facilities, staffing and community outreach. CBP facilities that were 
designed decades ago must house operations today and capacity is often 
exceeded. We continue to work with the General Services Administration 
(GSA) and local, State, and regional stakeholders to expand and upgrade 
port of entry sites and infrastructure to streamline processing times 
and better facilitate throughput. Our Trusted Traveler programs, 
including SENTRI, NEXUS and FAST, are being streamlined to increase 
enrollment among frequent travelers. However, CBP is limited by current 
facility restrictions that can inhibit the processing of legitimate 
trade and travel; thereby contributing to wait times. Although CBP has 
undertaken a number of initiatives to address wait times at our land 
border ports of entry, challenges still exist.
    The Western Hemisphere Travel Initiative (WHTI) requires that 
travelers possess standardized, secure documents to allow CBP to 
quickly and accurately identify a traveler and their citizenship while 
shortening the inspection process. With funds requested in fiscal year 
2009, CBP will complete the deployment of the radio-frequency 
identification (RFID) sensor and license plate reader technologies 
started in 2008 and add 89 new CBP Officers at our land border ports of 
entry.
    CBP's Office of Field Operations (OFO) uses the Workload Staffing 
Model (WSM) to assist in requesting resources and aligning staffing 
levels at our ports of entry. The WSM was developed for CBP Officers 
focusing on all aspects of CBP processing for passengers and cargo in 
the air, land and sea environments. The model assesses staffing needs 
based on workload, processing times, complexity and threat levels, and 
provides an optimal level of staffing for each port of entry. The model 
is a decision support tool and is used as a guide in the allocation of 
available resources. It does not replace the judgment of experienced 
managers when making decisions on allocation of limited staff.
    Technologies deployed to our Nation's sea, air, and land border 
ports of entry include non-intrusive imaging equipment, such as large-
scale X-ray and gamma-imaging systems, as well as a variety of portable 
and hand-held technologies to include radiation detection technology. 
NII technologies play a key role in CBP's layered strategy and are 
viewed as force multipliers that enable us to screen or examine a 
larger portion of the stream of commercial traffic quickly, while 
facilitating the flow of legitimate trade, cargo, and passengers. An 
integral part of CBP's comprehensive strategy to combat nuclear and 
radiological terrorism is to scan all arriving sea containers with 
radiation detection equipment prior to release at domestic ports. 
Currently, CBP has 398 Radiation Portal Monitors (RPM) deployed at 
priority seaports in the United States, through which approximately 98 
percent of all arriving sea-borne containerized cargo passes. CBP is 
forecasting the deployment of 93 additional seaport RPMs by the end of 
fiscal year 2009.
    Additionally, we currently have 246 RPMs on the northern border, 
which provides CBP with the capability to scan 91 percent of truck 
cargo and 81 percent of personal-owned vehicles (POVs) for illicit 
radiological/nuclear materials. The current forecast calls for the 
deployment of an additional 337 northern border RPMs. This will give 
CBP the capability to scan approximately 100 percent of truck cargo and 
100 percent of personal vehicles for illicit radiological/nuclear 
materials with RPMs. CBP will also increase the southern border RPM 
deployments (currently scanning 100 percent of all truck cargo and 95 
percent of POVs). By the end of fiscal year 2009, CBP plans to deploy 
51 additional southern border RPMs--providing CBP with the capability 
to scan approximately 100 percent of POVs.
    To further our priority mission of preventing terrorists and 
terrorist weapons from entering the United States, CBP has partnered 
with other countries through our Container Security Initiative (CSI). 
Almost 32,000 seagoing containers arrive and are off loaded at United 
States seaports each day and under CSI, which is the first program of 
its kind, CBP partners with foreign governments to screen containers at 
foreign ports and then identify and inspect high-risk cargo containers 
at those foreign ports, before they are shipped to our seaports and 
pose a threat to the United States and to global trade.

                                CANINES

    CBP's canine program is the largest and one of the most decorated 
and recognized canine programs throughout the law enforcement 
community.
    The CBP canine program is also one of the most diverse programs 
throughout law enforcement. CBP canine disciplines include human 
detection, narcotic detection, explosive detection and search and 
rescue. Some of these disciplines are crossed-trained to provide 
cadaver detection and track and trail abilities. Explosive detection 
canines cannot be trained in other disciplines due to the required 
operational response to a positive detection. In order to properly 
provide this essential diversity of the program, CBP maintains two 
separate training facilities, one in Front Royal, VA and one in El 
Paso, TX. The one thing all CBP Canines have in common is the 100 
percent detection rate as the standard by which they are tested.
    Border Patrol canines work in a variety of environments which 
include desert and mountainous areas, most of their duties require 
working outdoors. OFO canines work in more controlled areas of the 
designated POEs, be it at an airport, seaport, or land border crossing. 
OFO and OBP are trained for their specific mission as it relates to the 
laws in which they are governed. Both OFO and OBP operate are subject 
to the Fourth Amendment. When using canines OFO usually operates under 
the ``Border Search'' exception to the Fourth Amendment's warrant and 
probable cause requirements, while OBP generally operates away from the 
border and thus under general Fourth Amendment rules.
    The CBP Canine Program was the first law enforcement agency in the 
United States to train and deploy explosive detector canine teams with 
the capability to detect trace amounts of explosive on humans as well 
as searching conveyances, cargo, luggage, and mail. CBP remains on the 
cutting edge in development and implementation of this aspect of 
explosive detection capability.
    Due to the legal requirements for canine law, CBP maintains the 
highest standards for their canines, handlers and the training 
curriculum. CBP Officers and Border Patrol Agents, who are to be Canine 
Team members, must successfully complete all training and certification 
with their canine partner, creating a bond and a trust that allows them 
to excel at their duties.
    Over its history, the CBP Canine Program has continually 
demonstrated its ability to train and deploy professional detector 
canine teams to meet the diverse and demanding requirements of our 
deployed locations and work environments. The CBP canine program will 
continue to consistently adapt to meet the DHS/CBP mission while 
providing a more mobile and rapid response in order to lead the way 
into the future.

                               CONCLUSION

    Madam Chairwoman, Members of the subcommittee, we have outlined 
several initiatives today that, with your assistance, will help CBP 
continue to protect America from the terrorist threat while fulfilling 
our other important traditional missions. While these initiatives are 
by no means the sum total of CBP's work between the ports of entry on 
either border, we believe they highlight the significant 
accomplishments and ongoing work of our men and women on the front 
lines and provide a strong foundation for ensuring the proper balance 
in reducing our vulnerability to the entry of terrorists, illegal 
aliens and drugs.
    Thank you again for this opportunity to testify. We will be happy 
to answer any of your questions.

    Ms. Sanchez. Thank you. I appreciate your testimony.
    Chief Aguilar.

 STATEMENT OF DAVID V. AGUILAR, OFFICE OF BORDER PATROL, U.S. 
 CUSTOMS AND BORDER PROTECTION, DEPARTMENT OF HOMELAND SECURITY

    Mr. Aguilar. Good afternoon, Chairwoman Sanchez, and we 
appreciate that we can be here with you today.
    Ranking Member Souder and the rest of the committee 
Members, it is always a pleasure to be able to testify in front 
of this committee, to continue talking about some of the 
challenges that we face, and especially some of the 
achievements that we think we have accomplished over the last 
couple of years, since we have ramped up our efforts along our 
Nation's southwest border, and, of course, also on the northern 
border.
    I would just like to cover a couple of things--and then 
pass it on to my partner here from Air and Marine, General 
Kostelnik--the things that I think are important at this point, 
and that is the following.
    We are coming up on the 84th birthday of the United States 
Border Patrol on the May 28, next week. We are going to 
celebrate it in El Paso, Texas.
    We have come a long way from where the Border Patrol 
originated--from riding horseback to continue riding horseback 
today, but using the technology that is out there, integrating 
some of those technologies, some of which Members of this 
committee saw last week on the ground in Tucson.
    That, plus the infrastructure that is being built, the 
personnel that is being added, the maturation of the 
organization, the added resources in the area of aerial 
platforms, has helped us dramatically.
    One of the things that I think has made a tremendous 
difference also has been Operation Jumpstart, which is coming 
up at mid-July on a drawdown. But the difference being between 
now and when Operation Jumpstart started, I will share some 
facts with you, some figures with you.
    When Operation Jumpstart started, we had about 11,581 
Border Patrol agents on board. As of the 10th of this month, we 
have 16,321 Border Patrol agents on board. We have built over 
100 miles of fence. We have built just under 100 miles of 
vehicle fence in addition to that also.
    Today, as we speak, we have about 1,266 Border Patrol 
agents going through the United States Border Patrol Academy. 
We are meeting our recruitment challenges. We are currently a 
little below target, but not by much. We are heading toward the 
18,319 Border Patrol agents that we are shooting for at the end 
of the calendar year.
    Now, what does that translate to? It translates to a 39 
percent reduction in apprehensions of illegal aliens, compared 
to fiscal year 2006. It also speaks to 15 percent reduction of 
alien apprehensions year to date, compared to last year--in 
addition to that, 1.8 million pounds of narcotics apprehended 
last year also.
    So the achievements and the expansion of our efforts are 
dramatic in fact. We have brought a higher level of operation 
total to the border. We have a long ways to go, but we are 
making and gaining ground on the border, thanks to the 
administration, this Congress and other things that you have 
given us to work and continue working along our Nation's 
border.
    With that, I look forward to any questions that you might 
have of us, and I pass it on to General Kostelnik.

     STATEMENT OF MAJOR GENERAL MICHAEL C. KOSTELNIK, USAF 
 (RETIRED), ASSISTANT COMMISSIONER, OFFICE OF AIR AND MARINE, 
  U.S. CUSTOMS AND BORDER PROTECTION, DEPARTMENT OF HOMELAND 
                            SECURITY

    Major General Kostelnik. Thanks, Chief.
    Madam Chair, Ranking Member Souder, Congressmen, it is a 
very pleasure to be here with you and tell you a little bit 
about the least known of the three operational organizations 
that comprise the modern CBP.
    Border Patrol is 84 years old, and Mr. Winkowski's heritage 
goes back 200 years to the original Customs Service. Air Marine 
is only 2.5 years old in the transition, and I think you all 
realize it was the combination of a legacy Border Patrol air 
marine aviation asset and the legacy Customs assets working a 
wide variety of missions.
    While we are by far the smallest, the things we bring to 
the table are important elements and assets in the war on 
terror in the homeland and the various missions that we 
support.
    Not only do we support chief Aguilar and the sector chiefs 
and Border Patrol sectors across the northern and southwest 
borders, we support the ports of entry and those areas in the 
southeast coastal regions as well, and run proper missions not 
only in the coastal regions and approaches to the country in 
the Caribbean and the eastern Pacific, but deployments in South 
America focus heavily on narcotics activity in the transit 
zone.
    During the last 2 years, I think we have made tremendous 
progress in our transition. We have been working behind the 
scene to fit and fix important aviation assets that we have 
historically had--the P-3s.
    Ranking Member Souder, you will know what a big contributor 
they are in the transit zone, and we did have big issues with 
cracks in the wing sets. These are aircraft more than 40 years 
old.
    We have created a service life extension program with your 
help. That has gone very well. We are about to return most of 
our aircraft back to operational service this year. We went on 
contract for four new wing sets this year, so over the next 
decade we will re-wing and re-tail and keep these aircraft in 
operational service for the next 40 years.
    We are actively recapitaling our air force. We are adding 
new helicopters. We added the EC-120 last year. We are adding 
new A-Star law enforcement helicopters not only for border 
security missions, but the internal missions supporting ICE and 
their investigation activities within the country.
    We just ordered new Army Blackhawks with their contract, 
which will appear in Homeland Security in about the 2010 
timeframe, and taken the existing 16 Blackhawks we have and 
updating them through a similar service life extension program 
that we put the P-3s to.
    We have a lot of work to go. We probably do not have enough 
aircraft to meet all the expectations and the need, but I think 
our transition has come a very long way.
    Last month we opened our large training center at Oklahoma 
City. If any members happen to be traveling through Will Rogers 
and would like to see the new $21 million hangar with your help 
that we put in this year, that is the seat of our training.
    I know this was important in Congressman Shuler's bill--
training and moving ahead and all these kinds of things in 
preparation for the war ahead. We have made a lot of progress 
in this area.
    So I am pleased to be a supportive member. Our primary role 
in CBP is organize training and equipping for future missions. 
Like I say, we supported my colleagues here, but many other 
colleagues, not only ICE, internal to DHS, but also 
organizations like Secret Service, DEA and many other Federal 
and local agencies who ask us for help.
    So I am pleased to be here. I know there won't be a lot of 
questions for A&M, but we are an important part of the 
supportive team, and I appreciate this opportunity to bring 
some of our Congressmen, over the past couple of years, to 
attention, and would welcome your questions.
    Thank you, ma'am.
    Ms. Sanchez. Thank you, General.
    I will remind everybody that the testimony of the three 
gentlemen will be inserted into the record, and that each of my 
colleagues has 5 minutes to ask questions.
    By the way, we have another series of votes coming up on 
the floor, so I am hoping we can at least get one round in 
before we get called up.
    I think most people in the Congress have supported giving 
more assets, and particularly more border agents, in the last 
few years, up to a total--I think you mentioned--18,319, Chief 
Aguilar.
    But there are those concerns about the consequences of 
getting people in, a large number of new agents in, and what 
effect they have on the culture and supervision, and if people 
have enough time, enough seasoning, if you will, to fill the 
supervisory positions and to really make a career out of the 
whole structure.
    So my question to you is really what effect does a large 
number of relatively new people have on your organization? What 
are you doing, either through training or on the job or buddy 
system or supervising, to try to make sure that these new 
recruits are getting the culture and the real aspects of the 
job that only come through time?
    I guess I would also ask you about recruiting and what it 
looks like and how many recruits it takes in order to really 
get one person that is going to be wanting to be out in Sasabe 
or Ajo or one of the other places we went to recently.
    Mr. Aguilar. All right. Yes, ma'am.
    Madam Chairwoman, the recruitment efforts that we are 
currently undergoing right now are, in fact, challenging, but 
we are meeting those challenges, and we are meeting the 
numbers. As I said, we are a little bit below our goal, but not 
by much.
    In fact, right now as we speak, the entry into the hiring 
pipeline is actually higher than what we require in order to 
maintain that pipeline. By that I mean that we have estimated 
that we require putting people into the hiring and recruiting 
pipeline at a rate of about 3,500 per week. We are doing about 
4,300 right now.
    The other challenge that we face is in fact what you spoke 
to, and that is the actual organizational integrity. When we 
refer to organizational integrity, we are taking many, many 
steps to ensure that we do everything that we can in order to 
ensure the proper ratio.
    The ratio we take a look at right now is one supervisor to 
every seven Border Patrol agents. I am pleased to say that at 
this point in time we are right on that cusp. We are pretty 
much on target with that.
    Now, we have changed the way that we train our people at 
the academy, which I think, and most of the chiefs, all of the 
chiefs believe, turns out a better trainee today than we were 
in the past, because of certain adjustments that we have made.
    We have also taken certain efforts to include, for example, 
a mentorship program within the United States Border Patrol. It 
didn't exist before. What we are bringing back--we hired 
annuitants that did well in their careers, putting them into 
the sectors and using them to mentor the supervisors--first 
round supervisors--and the agents actually coming into the 
Border Patrol as we speak.
    We have implemented a new field training officer program 
that in the past existed, but it was not as tight, if you will, 
as it is today. It has been enhanced. It has been augmented 
with a mindset that this is a new organization that is growing 
at a tremendous pace.
    In addition to that, we have implemented a post-academy 
program. Both of those put together are about a 3\1/2\-month-
long program that basically didn't exist to the degree that it 
exists today.
    So those are some of the things that we are doing--beside 
that, supervisory schools, journeymen schools, ethics training, 
which is very important to us. We have even included 
polygraphing at the hiring end in recruitment, and also to 
ensure that the quality of trainee that we are getting is at a 
higher level.
    But one thing we have not done is we have not in any way 
degraded the training of our people that are going through the 
United States Border Patrol Academy.
    The recruitment, as I have stated, remains a challenge. One 
of the areas that we are covering in recruitment is diversity. 
It is making sure that the United States Border Patrol, to the 
degree possible, ends up as an organization that is reflective 
of the makeup of this country. We are working very hard in that 
area also.
    Ms. Sanchez. Two of the bills that my colleagues have 
before the Congress are to increase even more your ranks. Can 
you give us an indication over the last 4 years how many new 
agents you have taken on?
    What would you say to, for example, Mr. Shuler, who wants 
to augment another 8,000 people? Can you really take that pace? 
Or do you need time to sort of figure out where you are and 
what you really need your people for, especially with the fact 
that we are still trying to get the fence and other things in 
place?
    Mr. Aguilar. Right. Well, first of all, I would offer my 
appreciation and thanks to Congressman Shuler and everybody 
else on the committee here for their interest in making sure 
that we are getting what we need.
    I would start there. What we need at this current time is 
an opportunity to mature our organization. The reason I said 
that is I started early with Operation Jumpstart. When 
Operation Jumpstart started, we had about 1,321 Border Patrol 
agents. We are over now at 16,000. So it is that maturation 
process that is critical.
    But in addition to that, in order to make the agents that 
we have hired over the last couple of years, over the last 
little over 2 years, more efficient, more effective, we need to 
balance those out with the infrastructure that some of you saw 
in the field last week, and the technology that will make them 
more efficient and more effective.
    So I would urge a little bit of caution in adding too much 
of one thing--in this case we are talking about Border Patrol 
agents--before we balance out what the current Border Patrol 
agent cadre needs, and that is a balancing out by way of 
technology, infrastructure and maturation that has to occur.
    A quick figure. Approximately 30 to 40 percent of the 
United States Border Patrol as an organization will be at a 
maturity rate of 2 years and under by this time next year.
    It is an important figure, because when we take a look at 
the needs of the organization in order to move forward and 
properly equip those officers, that is our focus right now--
maintaining the organizational integrity of the organization as 
a whole.
    We cannot skew it too far in any one direction--
infrastructure without personnel, personnel without technology 
and so forth. It is that right mix that we need in order to be 
as effective as we can and expand to the degree that we need 
to.
    Ms. Sanchez. Thank you, Chief.
    I will ask Mr. Souder for his 5 minutes of questions. I 
think after we do that, we will probably break to go and vote. 
There are two votes on the floor. Then rush back, I hope, in 
order for the rest of our members to get in some questions.
    Mr. Souder. Thank you, Madam Chairwoman.
    First, I want to say that it is--for those that don't think 
it has dramatically changed on the border, because we complain 
and complain about it, but it has dramatically changed. There 
is no question about that.
    We are trying to accommodate trade the best we can, but 
there are more agents, we fence, we have electronic things that 
we never dreamed of having a few years ago.
    In my frustrations and others' that it isn't sealed--and I 
personally think we haven't done this at a fast enough pace, 
which by the way, is a high degree of congressional funding 
hasn't followed through, nor has the administration requested 
adequate funding--not the people who are in front of us 
problem--but I do think that we do need to acknowledge that 
every day we become safer as a country.
    That doesn't mean it is like we are one where we will be 
totally safe. I don't think we will ever be totally safe, but 
every day we are becoming safer as a country, and I think that 
is important to acknowledge.
    I didn't like the way Project 28 started out, but, hey, we 
are making progress with it, and it is going to be an addition 
to the system. The UAVs along the border are just unbelievable. 
I saw that for the first time down at Fort Huachuca. The 
ability that it gives along the border is tremendous.
    These hearings, however, aren't just to pat each other on 
the back. They are to basically probe where we have some 
concerns. Let me just ask this first, because Congressman 
Cuellar and I aren't sure on the chorizo cane. We have brought 
this up a number of times.
    Has anybody looked at the ranches around Laredo and seen 
the kind of grass they are doing? Are we doing anything to cut 
it down? Your agents can't see. This invasive species--has 
anything been done since the last time we talked about this?
    Other than bees, I want to know are they cutting down cane, 
because bees are a 3-year project that we have reservations 
about.
    Mr. Aguilar. I was just sharing earlier with some of the 
staff for Congressman Cuellar that this June we are going to 
start a four-pronged effort in a 1.6-mile area there in Laredo 
in order to basically test which one of those efforts is going 
to be the best approach, not only to immediately cut it down, 
but more importantly, to be able to maintain that chorizo cane 
to stay as low as possible.
    In addition to that, we are going to continue with the 
biological agent, which is the wasp that you mentioned. So it 
is going to be a two-fold approach that we are taking a look 
at.
    Once that first project takes off, and we determine which 
one of those four means is the best way to cut and maintain, we 
will start focusing on that in order to expand for the rest of 
the river.
    Mr. Souder. I have a couple of questions for General 
Kostelnik, but I want to put this into the record. We do 
studies all the time. You have at least two ranches that we saw 
on different sides that have already tested this. I don't quite 
understand why past history can't be included to expedite a 
test. But I will continue to bring that up.
    General Kostelnik, there are three questions I want to ask 
you. You probably won't have time to field them all.
    But one, as you know, I have been concerned about tradeoffs 
that we make. One of the tradeoffs is the number of hours that 
are going to back up ICE now from CBP has dropped for 5 
straight years. It was 10,349 before we merged. It is down to 
3,761.
    Now, the problem that we have in Congress is I am not 
necessarily saying that supporting Border Patrol missions as 
opposed to ICE missions is the way we can go, but I don't 
believe we have had it fully disclosed to us what tradeoffs are 
being made.
    Does this mean that drug investigations aren't occurring? 
Does this mean we are not taking down networks? How did it get 
diverted, because your hours are up, but your total hours for 
ICE is dramatically dropping?
    There are two parts to this. One is the deterrent part that 
we need to fund--basically, a fence with a drop back in the 
checkpoints that the Border Patrol does to fend the 
investigations so that we can try to stop the flow in--if you 
can give a brief answer here.
    A second thing is FAA is looking to go from long-range 
radar system to GPS tracking of aircraft. What impact will this 
have on your division? Will you not be able to see the planes 
as well, or track it?
    How are we working on, because we know as we seal the land 
border, we are going to see more planes and boats coming in. We 
have to think what is the next step, in addition to the current 
step, which gets to Congressman Green's questions about do we 
have an overall plan?
    The third is we have already heard we are having some 
trouble getting enough Border Patrol agents, yet it appears 
that we are spending a lot of time training Border Patrol how 
to fly, when in fact we may, as we drawdown in Iraq, get lots 
of pilots in, who are already trained to fly.
    Are you looking at spending time bringing in trained 
pilots, rather than the number of hours that we are spending 
training pilots right now?
    Mr. Aguilar. Well, thanks for that. I will provide more 
coherent answers on the record for all three of those very good 
questions. I think you would be pleased with two of the 
scenarios you mentioned, the middle one being the more 
difficult one.
    First, the matter of ICE support is truly hours are down--
probably less than half of what they were at their peak. It is 
a very sophisticated analysis when you look at that, because 
when you operate an airport, 30 to 40 percent of your total 
time really isn't mission time anyway. It is overhead. It is 
training. It is test. It is evaluation. It is flight for a lot 
of different things.
    So if you look at that story, we are caught kind of in the 
middle between A&M. We support the Border Patrol. We support 
internal CBP missions. We support external ICE missions. But we 
support them just the same. In credit to both ICE and CBP, we 
have crafted a very careful prioritization method of how we 
support.
    In fact, if you looked at the ICE support statistic for 
2007, you would find, depending on how you track the way, but 
in a fairly honest way, the support is very high. Somewhere 
between 75 to 80 percent of all the formal ICE requests were 
honored.
    There were some ICE requests that were pulled back. 
Missions changed. Clearly, if you had ICE representation here, 
they would say some of their SACs or RACs just aren't asking. 
Well, that is a problem, but it is an ICE problem that they 
have to get over, because by asking, it tells us where the real 
requirement is.
    So actually, if you look at those missions in ICE, which is 
the heart of your question, that were not supported, it is a 
matter of prioritization. In the last 2 years, there have only 
been three or four of those kinds of things. Prioritization 
issues over that mission actually come to the headquarter and 
are made at the top.
    So I think you will find, when you honestly look at the ICE 
support, it is very good. It could be better, and clearly there 
are places the RACs and SACs do not ask, because we don't have 
a lot of infrastructure at key places within the country--
places like Atlanta or Dallas.
    We support those activities from the field, but as you 
know, many of those ICE missions require 1- or 3-hour response. 
But I would be pleased to provide our report from the last year 
on the record to give you a sense for that analysis.
    Quickly, on the long-range radar, that is going to be an 
issue, because when we go to a cooperative system with the 
national air space, we and the FAA will know who chooses to 
cooperate, so it will be problematic for those that do not.
    There is no technical solution to this, but we continue to 
work very closely with the FAA to maintain as long as we can 
until alternative technical means can be made available for the 
non-cooperative things to work that issue. That is a much 
bigger problem with a much longer-term solution.
    Ms. Sanchez. I thank the gentleman.
    We have got two votes on the floor, 2 minutes left on this 
vote. We are going to go over and vote.
    I hope you gentlemen can stay. We will probably be back 
within 10 to 15 minutes, and we will continue on with the 
questioning.
    We are now in recess.
    [Recess.]
    Ms. Sanchez. The subcommittee will now come back into 
session, and we will begin with 5-minute questioning from Ms. 
Lofgren of California.
    Ms. Lofgren. Thank you, Madam Chairwoman. Thanks for having 
this hearing.
    First, let me thank the three of you for your service to 
our country and your hard work. I do have some questions.
    I am going to hone in only one thing, Chief Aguilar, 
because I think it desperately needs clarification. I know that 
none of us can control in advance what each member of a large 
organization says. That is true for Members of Congress. 
Sometimes your colleagues say something, and you go, ``How did 
they really say that?'' That can happen in any large 
organization.
    But I was tremendously concerned by the comments made in 
the Rio Grande Valley Border Patrol about hurricane evacuation.
    For those who did not see the news articles, the report was 
that in evacuating for a hurricane, that people would be 
brought to bus points, loaded on buses to escape the coming 
disaster, and that, according to Dan Doty, the spokesperson for 
the valley sector, anyone who is not a citizen or legal 
resident would be held, he said, ``in specially designed areas 
in the valley that are made to withstand hurricanes'' and not 
evacuated.
    Well, I have got a couple of problems with this. No. 1, I 
am not aware of any structure that would restrain hurricanes, 
and if they are, let us build a bunch, and we don't have to 
worry about evacuating anyone. I don't think that exists.
    No. 2, a statement like that means that people who are at 
risk of their lives--let us say you are here without your 
papers, and you have got three U.S. citizen kids, if you know 
you are going to be picked up and pulled aside, you are likely 
to risk your life and the lives of your children not to 
evacuate. So really, just with that statement out there, you 
are putting lots of people at risk in the future.
    Not just for the hurricane, but for fires, for natural 
disasters, anywhere where an evacuation is necessary, this 
statement puts people at risk.
    Now, I understand and I do appreciate the staff briefing 
that was held for us yesterday that my staff attended, and I 
think many others did. I understand that there has been a 
clarifying statement.
    I have got a copy of the clarifying statement that says, 
and I will quote again, ``Our primary role in such events will 
be the safeguarding of life. No enforcement role will be 
undertaken that will in any way impede the safety and orderly 
evacuation.''
    But I don't think it is strong enough, given the 
background. You are well aware of what happened with the fires 
in Southern California.
    For whatever reason, at a certain point--and they weren't 
all Border Patrol agents; there were local law enforcement 
officials who went out and used the opportunity of that 
catastrophe for an immigration enforcement experience, and that 
experience itself is going to chill evacuations in the future.
    So I am asking you, Chief Aguilar. I know that you don't 
want people to die in a disaster. I imagine that this is of 
concern to you. Can you tell me what further clarification you 
might be able to provide either today or in the future?
    Mr. Aguilar. Well, the first clarification is that the 
statement that you have in front of you that we have raised to 
your staff is absolutely correct--that we would not in any way 
impede or interfere with any kind of evacuation, when and if we 
go to an evacuation mode.
    If anything, the United States Border Patrol, in an area 
such as South Texas, would in fact probably the largest law 
enforcement agency engaged in lifesaving and taking care of 
private property out there and assisting in the evacuation.
    What we have already done is everybody, from the secretary, 
myself, Chief Vitiello in Rio Grande Valley, has very 
aggressively and very assertively put out that these statements 
that were unfortunately in the media are not correct--that we 
would not take that posture that was described, that in fact 
our primary duty would be in fact to protect life and property 
of the population within the South Texas area.
    We would facilitate any kind of evacuation, and we would 
play the same role that the law enforcement community would be 
playing during that emerging type of situation. That message 
will continue to be going out.
    In addition to that, I have personally contacted, with the 
exception of Congressman Ciro Rodriguez, to whom we haven't 
been able to connect, and assured the Congressman for that part 
of the country of what our true plans are and how we would 
actually respond to that kind of a situation.
    I have spoken to Senator Cornyn. I am not connected yet 
with Senator Hutchison. We have spoken to Steve McGraw, who is 
the Homeland Security director for the State of Texas, Jack 
Colley, who is his emergent operations individual.
    So we are very aggressively going out to clear the record 
on this, to make sure that the community understands that the 
Border Patrol has, will and will continue to do what it has 
done in the past on so many occasions when the community 
requires that type of support.
    Ms. Lofgren. Chief, if I could just follow up. I think my 
time is just about over. I appreciate the efforts you have 
taken, but I just would like to suggest we might need to do a 
little bit more, because----
    Mr. Aguilar. Absolutely.
    Ms. Lofgren [continuing]. As you know, in a vulnerable 
population, people are here. Rumors travel like wildfire. So 
this statement, whether wrong or incorrect, is--I guarantee 
you--having an impact in Florida. It is having an impact in 
Georgia. It is having an impact in California.
    I think there is a time and place for everything. We are 
against people who don't pay their child support, but we are 
not going to run something on the child support deadbeats----
    Mr. Aguilar. Right.
    Ms. Lofgren [continuing]. And say, ``Well, we are going to 
collect before you get on the bus and escape the wildfire.'' 
There is a time and a place for everything, and as you are 
saying now, when it is that kind of emergency, the only thing 
we are looking at is saving lives, getting people out of there. 
But that statement needs to be everywhere.
    Mr. Aguilar. We are going to very aggressively do that, 
because unfortunately, it is really ironic that the men and 
women of the United States Border Patrol, who dedicate so much 
time, effort and focus on supporting the community and being a 
part of the community, have now been painted with this kind of 
a situation. That is just absolutely incorrect.
    Ms. Lofgren. I thank you, and I appreciate your efforts, 
and I would love to work further with you on it.
    I yield back.
    Ms. Sanchez. I thank my colleague from California.
    We are going to try to get a second set of questions, and I 
know you have many more. We would like to do that for you.
    I do believe it is my colleague from Indiana's turn for 5 
minutes, if you have. Otherwise, we can--well, because you are 
the Republican. We can turn it over to--okay.
    Mr. Cuellar. First set of questions, so but I go in the 
first line of questioning? Thank you.
    Ms. Sanchez. This matter has to go back and forth, Mr. 
Cuellar, but please--5 minutes.
    Mr. Cuellar. Mr. Souder.
    Yes, thank you.
    Let me just follow up on what Mark just mentioned a few 
minutes ago--and just one question to each.
    Mr. Winkowski, Commissioner, the famous letter that we have 
been talking about. I understand it is at the secretary's 
office--could change this. Inform the secretary that I--and I 
am going to talk to Chairman Thompson also, because I think the 
last time he was before us he promised us that he was going to 
get that to us real quickly, and it has been literally months.
    This is the letter that we are asking about, what is the 
true number of staffing needs that we have for customs and the 
infrastructure needs. It is literally since last year that we 
have asked for this letter.
    It is almost getting bar stamped--big supported role, but I 
know that some of you all have done the work, but it is still 
up at the secretary. So you could have him call us or call me? 
I would be happy to give you my personal cell number at the end 
of the meeting--No. 1.
    No. 2, Major General, I appreciate it. I think I saw 
finally. We talked about bringing the Coast Guard down to the 
border, and the Coast Guard is talking about doing some patrol. 
It must have been coincident, but right after we made that 
announcement, the Laredo sector--and I was kidding Chief 
Carrillo about this--you all took a boat down there, actually 
one that I think could be very useful.
    Since the Coast Guard is part of this big agency, you all 
will be working together. There are no turf battles on this, if 
they do come to doing patrolling the Rio Grande?
    Major General Kostelnik. We are one of two aviation and 
maritime elements that provide a lot of assets for DHS, the 
Coast Guard being obviously the much older, better-known and 
more productive. Of course, it is up to them to determine the 
missions that they are best trained and equipped for.
    Now, we support aggressively the Border Patrol mission in 
the riverine environment, and particularly the Rio Grande. As a 
part of our recapitalization plan, not only are we 
recapitalizing our aircraft fleet, we are recapitalizing our 
maritime fleet as well.
    We have put a new generation of safe boats that were 
actually acquired from the U.S. Coast Guard into various Border 
Patrol sectors. This year we just designed and have acquired a 
new generation of airboats for specific use in the riverine 
environment and in shallow water, and have a wide variety of 
large and small boats that we continue to upgrade for Border 
Patrol missions from San Diego to McAllen, Texas.
    It is up to the Coast Guard to determine whether that is a 
credible area and a focus and a mission set for them. It would 
be inappropriate for me to comment on that, but clearly we 
partner with the Coast Guard on many areas and many missions of 
support.
    But we think over time that we would be able to provide 
organically the maritime assets in the riverine environment.
    Mr. Cuellar. Could I ask you to get together with the Coast 
Guard, because we did pass an amendment on the House floor over 
to the Senate, asking the Coast Guard to look at the needs for 
the Rio Grande needs.
    Could I ask you all to get together with the Coast Guard? I 
will be calling you and the Coast Guard admiral to get together 
so we can talk about doing a joint mission together.
    Major General Kostelnik. Okay. I would be happy to do that. 
In fact, in the small boat, the kind that would be riding the 
riverine, there has already a very wide-ranging cooperation 
set, both in training and acquisition and deployment in that 
same class of small boats between us and the U.S. Coast Guard. 
I think you will find it a pretty good story.
    Mr. Cuellar. Yes, sir. Like I said, we will call your 
office and set up an appointment with the Coast Guard also.
    Mr. Aguilar, the question that Mr. Souder was talking--let 
me just follow up. I got the white paper that I think was in 
the works for I don't know how many months. It is one page and 
one paragraph--what I got. It is on the Laredo sector, the 
pilot program. I appreciate what you all are doing for 
selecting that area.
    I have a couple of questions. It is supposed to be five 
phases composed of 16.1 miles. According to this, I think you 
said it might be a little larger.
    It is supposed to be five phases, one phase per year 
starting 2008. If we go at this rate, to cover 1,250 miles, 
that might be over 100 years. I am sure we are not talking 
about 100 years going at this particular pace.
    But the cost also does concern me. It is $3.5 million, and 
I keep the getting folks down there in Texas, and surely one of 
the conservation folks and some of the other folks that Mr. 
Souder also talked to, and they are saying they can do this a 
lot cheaper. This is only $3.5 million for 2.7 miles.
    Are you all willing to sit down, and we can get some folks 
to come up here? But I don't want you to send me somebody that 
doesn't have the authority. I would love to sit down with you, 
and I would love to sit down with Mr. Souder also, and bring 
you some folks.
    They keep saying they can do this cheaper and faster. I 
understand that there are certain hoops that you have all got 
to go through, but are you all willing to sit down, Mr. Aguilar 
and Chief?
    But I don't want to meet with anybody. I really would like 
to meet with you or somebody who has some authority, so we can 
talk about some decisions where we can hopefully do this 
quicker, and hopefully we can do this cheaper also to the 
taxpayers.
    Mr. Aguilar. Absolutely. As a taxpayer, I would appreciate 
that opportunity, but more importantly for me and my 16,000 
agents, we would jump on that opportunity. If there is a 
faster, easier way to do this, yes.
    We did get some clarification on the pilot project up 
there. One of the reasons that it will take 4 years--it is what 
I am being told--is because of the requirement still for us to 
do an environmental impact statement. That still takes that 
amount of time.
    Now, those are some of the additional built-in costs that 
may add up to the $3.5 million cost. I will take that for the 
record, and I will come back to you with a full delineation of 
what those costs include. But, yes, I would absolutely look 
forward to a meeting.
    Mr. Cuellar. Thank you, sir.
    Ms. Sanchez. Thank you, Mr. Cuellar.
    I will not go to a second round, and I will ask my Ranking 
Member to go ahead for 5 minutes.
    Mr. Souder.
    Mr. Souder. Thank you.
    I wasn't going to, but I want to follow up briefly on the 
cane, because it is pronounced at Laredo, but it is the whole 
border has a big percentage of it. It has salt cedar or other 
invasive species in it that anybody who thinks any fencing can 
be seen or any Border Patrol can see--as I have said before, we 
were at Laredo. One of your agents came with a dog, and there 
were two people standing right next to your sector chief, and 
we didn't even see them in the brush.
    Now, the question is if it is going to take environmental 
analysis, why can't they analyze some of the areas that have 
already done this? Why, then, if it is going to take so long to 
get it cleared, can't we clear for a bigger amount, so we are 
not held up and then have to go to the next area with it? It 
seems to me history can get then some, too.
    Last, as a big believer that you can't incarcerate 
everybody--there should be work release programs--why can't 
some of the work release people cut the cane?
    The key challenge we have had is how to keep the cane from 
coming back. That has been the biggest reason we don't cut it. 
We think that grass will work. But the key thing then is we 
have all this stuff along the border.
    We are not going to be able to take trained Border Patrol 
agents and cut all this stuff. It might not take 100 years, but 
we are probably talking 10 or 15. We need some creative ways to 
accelerate this process.
    But I have two additional comments, and then a couple of 
questions.
    I am thankful for the P-3s. At one point we hardly had any 
of them flying. They are a critical part of our structure, and 
we need to continually upgrade.
    My earlier concerns about ICE coverage--because I do 
believe from talking to people all along almost every sector, 
requests aren't coming in. There is a certain fatalism to it, 
concerns about it. I wasn't necessarily criticizing how 
resources are being used. I don't think you have enough 
resources.
    I was alluding to before the hearing started--and I want to 
put this on the record--we have a short-term opportunity at Big 
Bend Amistad Lake. The National Park Service has funds. They 
are willing to work with that. They are trying to make 
decisions. They have been meeting to put Border Patrol housing 
on National Park land.
    To have a joint operating center at Lake Amistad requires 
chaos, in political terms. It is two different agencies. There 
are funding streams in each agency. We have got to get 
clearance in appropriations. I have talked to Congressman 
Dicks, who is on both appropriations and this committee and 
works with National Parks in particular.
    This is ridiculous that we can't get these kinds of things 
worked out, and it is the classic thing that the 9/11 
Commission bashed us for. In the government there is this 
jurisdictional thing that seems to be slowing us down. I hope 
you will look into that and see, because it particularly is 
important to the Border Patrol, because we have huge sectors 
there.
    One other thing related to Texas and the Border Patrol. It 
is outrageous in the Marfa sector that where you have a 
checkpoint that the State of Texas will not lower the speed 
limit before that checkpoint, endangering our Border Patrol 
agents.
    Somewhere here we are going to have to some accommodation 
of what national security needs are in relationship to local 
authority to put people trying to protect national security at 
risk. There has to be some way to address these questions.
    I wanted to ask a few questions about the port entrance. 
You have been spared so far. These questions are actually--one 
is related to infrastructure. How do you prioritize? What are 
your current prioritizations for port of entry? What are some 
things that we should maybe looking at?
    I know, for example, at Sault Ste. Marie, which is not a 
big crossing in the north border, there nobody is really 
saying, ``Oh, we are going to build another bridge'' or 
anything like Detroit or Buffalo, but is that because our truck 
area is jammed? The trucks go halfway over the bridge. They 
have enough to handle the cars, but the trucks are holding them 
up.
    Another question is related to your staffing. We heard from 
Chairman Reyes that he is proposing 5,000 to 6,000 more people 
at the ports of entry. How would that help you, and where would 
you use them?
    Mr. Winkowski. Well, thank you very much for the question.
    On infrastructure, this is extremely critical for us. Just 
by way of some facts here, our average facility is 42 years 
old. Twenty-seven of our land ports of entry inspection 
facilities were built before 1960, have never had major 
renovations or replacement.
    Fifty-seven percent of our sites are over capacity, have no 
expansion options, or have site configurations that constrict 
or limit the flow of traffic, and 67 percent of our buildings 
are at or beyond capacity. This is a very, very critical issue 
for us.
    I think it was Chairman Reyes that said this is not brain 
surgery, and I agree with him. To me there are three issues 
here. One is the technology piece. The other piece is the 
staffing piece, and then the infrastructure piece.
    To me those are the three issues that we have got to get 
our arms around. Now, from the standpoint of infrastructure, I 
think this is extremely critical for us. But I believe what we 
need to do is move kind of off just the ports of entry. It is 
very, very critical that we remodel and renovate the ports of 
entry. They need it very, very badly.
    However, Congressman, we also have to look at the roads 
going into the ports of entry and exiting the ports of entry. 
So in other words, if I still have a two-lane road coming into 
a port of entry that has five booths, and we built 10, I still 
have a two-lane road coming in.
    When you look at it from the standpoint of cycle times and 
the issue of wait times, in field operations we have a balance, 
as you know. We are dealing with legitimate trade and travel, 
of which most of it is legitimate trade and travel.
    We are also dealing with the violator. So it makes the job 
for our officers extremely critical. So on the infrastructure 
piece, just very, very big for us.
    From the standpoint of our staffing, certainly if we 
received additional staffing, we can put them to work. There is 
no doubt about that. I think there are things that we are not 
doing that we need to do.
    No. 1, we need to be able to staff all the booths. We do 
staff the booths during peak time, but often times what happens 
is that is done on overtime. We have increased the overtime 
this year by over $35 million to give our port directors the 
flexibility to deal with these peaking issues.
    But also, you have got to be very, very careful here, 
because you start burning people out. People are on duty for 
too long. So we need that plus-up from the standpoint of 
staffing. Right now, we have 18,800 CBO that are on, and my 
target is about 20,000. So I am down about 1,100.
    Now, we have made a lot of inroads, but we do have 
attrition rate issues here. So when we look at that total 
package here, additional positions certainly would assist us, 
but we need to come up with a better way of retaining people.
    We are looking at about a 9 percent attrition rate. I 
believe the new retirement enhancement that was passed by 
Congress and signed into law that is going to be taking effect 
on July 6 will help us tremendously in retaining our officers.
    Our officers will be receiving law enforcement retirement 
benefits. This is something that in my 33 years is one of the 
most important things that is happened in our career, because 
it is so critical that our officers who are out there enforcing 
laws and in harm's way have the right protection.
    So I think that is going to help us from the standpoint of 
retention. Last year we lost 405 officers strictly to other 
agencies that had that special law enforcement retirement 
package.
    So the infrastructure piece, but we have to think of the 
technology side of it as well, and certainly the staffing.
    Ms. Sanchez. Ms. Lofgren, for 5 minutes.
    Ms. Lofgren. Thank you, Madam Chairwoman.
    I know you were here this morning to hear our discussion 
with the first panel, and I have two questions for either you, 
chief, or whoever else can answer it.
    First, we know that it is tough to recruit, train and 
retain officers. We had a discussion about taking a new 
approach with special outreach to our returning wounded 
warriors, people who might not be in a situation, because of 
their injuries, where they could go out and patrol, but they 
would be ready to computer monitoring and activities of that 
sort.
    So, No. 1, do you think that is viable? If you do think it 
is viable, how could we help you accomplish it?
    Then question No. 2. I have actually talked to people who 
have an interest in the agency, but if you live in San Jose, 
the concept of having to pull up stakes and move to South Texas 
is not necessarily an appealing one.
    If you were able to do something on a remote basis through 
computers--we have got call centers all over the world 
servicing with technology. You don't need to be onsite, if you 
are doing that kind of job.
    Do you think there is a potential to expand your workforce 
without the barrier of people having to relocate by utilizing 
technology?
    Mr. Aguilar. Let me begin here. The positions that I think 
you are referring to, Congresswoman, are what we call mission 
support positions--mission support positions that are 
absolutely critical to operations.
    Within the Border Patrol, those mission support positions 
translate to the following: the mechanics, law enforcement 
communication positions that actually man cameras and things of 
that nature, HR specialists and things of that nature.
    Within that universe there may be, and there probably could 
be, some positions that would lend themselves to that remote 
offsite type of support. We would welcome the opportunity to 
actually employ and work with our wounded warriors--absolutely.
    In fact, right now here at the Ronald Reagan Building, we 
are going through that process of trying to engage as many of 
them as we can. We can do better, and we need to do better in 
that area.
    But yes, there are in fact probably some positions that 
would lend themselves to that through technology connecting 
them to supporting our Border Patrol operations.
    The area of living in South Texas and New Mexico----
    Ms. Lofgren. I don't mean to be dismissive about it, 
because those are wonderful places----
    Mr. Aguilar. Absolutely.
    Ms. Lofgren. It is just pulling up stakes is hard for 
people sometimes.
    Mr. Aguilar. For the most part--and again, I refer for the 
most part--in the Border Patrol, the majority of those 
positions are probably going to require that they be onsite 
because of the nature of the work. But those positions that 
could lend themselves to remote offsite, I think we would 
welcome the opportunity. We will do the research.
    Mr. Winkowski. From the field operations standpoint, 
Congresswoman, I really embrace this idea. I think we have some 
more flexibility from the standpoint of where our field offices 
and where our ports of entry are located.
    We have ports of entry down on the southwest border, but as 
you know, we have 326, and 20 field offices scattered 
throughout the country. So I think I have some flexibility 
there. So I want to try and take that on.
    Ms. Lofgren. Good. If there is anything I can do, I am 
sure, or any of the committee members could, to assist, I would 
be eager to do so.
    Just one quick follow-up question. Attrition rate now is 
running at what percent?
    Mr. Winkowski. For the CBPOs it is 8.9 percent. It was 8.9 
percent last year.
    Mr. Aguilar. For the Border Patrol, once they reach the 
journeyman level, it is about 4.5 to 5 percent.
    Ms. Lofgren. So that is considerably lower than in past 
years.
    Mr. Aguilar. Well, actually it is maintained pretty steady 
for the journeyman level.
    Ms. Lofgren. I see.
    Mr. Aguilar. The reason I use that is because from entry 
into the Border Patrol, entering on duty to the time they get 
out of the academy and get past their journeyman, it can vary 
between 18 and 20 percent. That takes into account the academy, 
living in some of these places, and things of that nature.
    Ms. Lofgren. So once you have made it all the way through, 
you are going to have under 10 percent, but you are going to 
have a fifth of them who are going to wash out to get to that 
point, pretty much.
    Mr. Aguilar. Yes.
    Ms. Lofgren. Okay.
    Madam Chairwoman, I appreciate this opportunity. Thank you.
    Ms. Sanchez. You can go ahead and say something.
    Mr. Souder. About South Texas being beautiful--the commutes 
are really shorter to work, I understand, than some of various 
Californians.
    Ms. Sanchez. Certainly, Mrs. Lofgren's does. Everybody 
wants to live there.
    Ms. Lofgren. I can drive from one end of my district to 
another without traffic in 10 minutes.
    Ms. Sanchez. Yes, and when there is traffic?
    Ms. Lofgren. An hour.
    Ms. Sanchez. I am trying to get from your airport just to 
your downtown, which isn't very far, and it can take hours.
    Anyway, Mr. Winkowski, some of the legislation presented 
today only addresses the Border Patrol needs. What are your 
priorities for the resources that you need at your ports of 
entry and to secure our borders from your standpoint?
    Can you give the subcommittee an update on your current 
staff levels, with an indication of whether you are on track 
for this year with respect to staffing? Do you need more? Are 
you on track? What are you doing right now? What are you trying 
to accomplish? Do you have enough? Do you need more? What does 
the future look like?
    Mr. Winkowski. As I had mentioned, currently as of the end 
of April, we had 18,834 CBP officers on board, and our target 
number, the number that we believe we can afford, is 20,009. So 
we are off about--we have about 1,100 vacancies that we are 
working through.
    We certainly have a pipeline. We have 1,800 people that are 
on the list. We had 3,024 training seats at the academy. So we 
are working toward filling those positions.
    As I mentioned earlier, one of the challenges that we have 
is attrition rates. Nine percent is very high. In some 
locations like Calexico, for example, it is higher. It is 18 to 
20 percent. People don't want to live there.
    We have taken some measures in there. We are working with 
OPM and modifying location codes so, for example, if we want 
you to go to Calexico, you put in for San Diego and Tecate and 
Calexico under that code, and then we call you up and say, 
``You got Calexico.'' People say, ``I don't really want to go 
to Calexico. I want to go to San Diego.''
    So we are looking at a code that just addresses Calexico, 
so when a person says, ``I want that code. I will go to 
Calexico,'' we don't get all the refusals that we have now.
    That is the challenge. I think the other challenge that we 
have had is not having the law enforcement retirement package. 
Now that we have that, and it is effective July 6, we believe 
that we will slow down the attrition rates.
    Last year, for example, 405 officers left Customs and 
Border Protection and moved on to ICE and other organizations 
that have the 6c law enforcement coverage. Some of these 
officers went from GS-12 to GS-7s to get it.
    So that legislation was extremely important to us from the 
standpoint of retaining the best and brightest. It all fits 
into a border strategy. You need consistency. You need that 
well-seasoned individual, that veteran that is going to be out 
there safeguarding the homeland.
    It is very hard when you have a high attrition rate, and 
you keep bringing people on. It is a revolving door. I think we 
are going to make some inroads here.
    We have more challenges. Congresswoman, I know you have 
been down to El Paso and on the southwest border, and it is a 
tough job. It is a very, very difficult job, as you know, and 
it fits right into our whole issue of infrastructure.
    We see some of the conditions that our officers work in, 
and we patch it together. But from the standpoint of 
infrastructure, and I had mentioned some facts there, we have 
got a real problem brewing. We are heading down a very, very 
dangerous path.
    Think about it. The chief over here is hardening between 
the ports of entry. What is going to happen? They are not going 
to stop coming in and stop smuggling. They are going to start 
coming in through the ports of entry more than they are now. 
They are going to start blitzing the ports of entry. We have 
had those problems back earlier down in San Ysidro.
    Our infrastructure is not prepared for that. It is 
inevitable. That balloon is going to go the other direction 
into the ports of entry. So the focus in on infrastructure is 
extremely, extremely critical for us.
    From the standpoint of staffing, I was able to hand out 
additional overtime to help out port directors as we enter the 
summer peak periods. But there are things that we don't do as 
much as we should--outbound operations, for example, looking 
for ammunition and weapons going out, a big concern to the 
Mexican government.
    Being able to address some staffing scheduling issues, 
being more creative in our ability to schedule. We have a whole 
different work force now. When I came in 33 years ago, I knew 
this was my career. I had a pension. No one has that anymore. 
You only have 401s.
    These kids move on. They go on to other organizations. That 
is good, but we have got to be able to have the right package 
for them to retain them.
    I think the enhanced retirement is a great step forward, 
but organizationally, we need to look at things--more creative 
scheduling, more 4/10's--but in order to do that, you have got 
to have the flexibility from the standpoint of staffing, 
because I can't leave those booths empty.
    I am dealing with legitimate trade and travel, and I am 
dealing with the violators. Legitimate trade and travel--people 
don't want to wait in line. I don't blame them. I don't want to 
wait in line either.
    So I think from the standpoint of the infrastructure piece, 
extremely critical; certainly from the standpoint of the 
staffing, having the best and brightest out there, having an 
attractive package. I believe we are on our way. I really 
appreciate the 6c coverage, the enhancement retirement that 
these officers got, as well as the technology piece.
    Ms. Sanchez. I don't think Calexico is such a bad place. 
Right across the way is Mexicali, where they have the best 
Chinese food in the world. It is just unbelievable.
    We have read recent articles about the low morale, for 
example, of El Paso ports of entry. I think you have talked 
about how the new package is hopefully going to help with some 
of that.
    But some of it seems to be the whole issue of being 
overworked. When you are overworked, sometimes things can slip 
through more easily than not. Certainly, we have seen that the 
Congress can make mistakes when we are pushing things a little 
too fast.
    So how do we take care of this overtime problem that so 
many seem to have to do, especially in these land ports where 
it is not that much fun to live?
    Mr. Winkowski. Yes, and I think this is getting to the 
whole area of resources. I did listen to Chairman Reyes testify 
today, and I verified some numbers. For example, in the port of 
El Paso, they have 766. That is their target--766 officers--and 
they have 55 vacancies.
    This is a very, very difficult issue for us. We have got to 
staff the booths. We have got to provide the trade community 
with services. One of the things that management was attempting 
to do in El Paso that brought on some of the picketing was 
looking at some different scheduling.
    You get into some real quality of life issues for people. 
Working the midnights-to-eights and the different shift work, 
some like it, some don't like it. In our business as a CBP 
officer, it comes with the territory.
    I personally spoke to the director of field operations, 
Gene Garza, about exactly what changes they were making, and a 
lot of the changes were workforce alignment changes and getting 
the right schedules in place. I think we are able to 
streamline, eliminate some of our what is being called free 
doubles, but not all of them.
    It really comes down to having the right staffing numbers 
in place to be able to come up with some of these more creative 
scheduling.
    Ms. Sanchez. My last question of the day is for the 
General. You have, I think, three unmanned aerial drones right 
now. Do you plan to get any more? Do you plan to get any more?
    Don't you have the three down in the south, and you are 
putting one to the north? Can you explain a little bit about 
what you are doing there and what your future expansion plans, 
if any, would be?
    Major General Kostelnik. Well, I appreciate the opportunity 
to do that, and I left that out of my introductory statements. 
We spent a lot of time recapitalizing the existing resources we 
have. Clearly, that effort was necessary, given the aircraft we 
have and their age, but really not sufficient for forward-
thinking strategy.
    The UAV program has been one of our major areas of 
investment, and it clearly is a technology push that, if you 
look at the way the military has used UAV systems--UASs--
overseas, there is clearly a high performance.
    In fact, in these unmanned aircraft that we fly, which is a 
Predator B--it is the same aircraft that the United States Air 
Force, Navy and several other countries around the world fly--
this single aircraft can do things that none of my manned 
aircraft can do. In that lies the charm.
    We currently have four operational aircraft in service 
today, as we speak. Those aircraft are all today located in 
Arizona. One is a dedicated training asset. We are currently 
and have been for the last couple of months actively training 
our own agents to operate these things.
    You may or may not realize that most of the operators of 
these things that are flown overseas are actually flown by 
contractors, and then the military fly them up and away, but 
the contractors do the take-off and landing.
    We are moving out to fly all of these assets ourselves to 
give us maximum flexibility, so they will be flown by law 
enforcement agents. We have funds in hand, or are in the 
process of finalizing a contract, for two additional aircraft 
that have identified tail numbers at the factory and will enter 
operational service with us this year.
    So by the end of this calendar year, U.S. Customs will have 
six of these aircraft operational. One of those is a dedicated 
training asset and will probably be a test asset to support 
follow-on secure border technology developments in Yuma and in 
Tucson.
    One aircraft is a dedicated northern border aircraft. That 
will deploy in the next month to Grand Forks, North Dakota. It 
will be hosted out of the Air Force base, where the North 
Dakota National Guard actually flies and has pilots to fly 
Predator-A models, and that will begin the first northern 
border deployment.
    We have just completed, in concert with United States Air 
Force and with U.S. Coast guard, a maritime demonstration. 
There is not a variant of the Predator-B aircraft that does 
maritime surveillance.
    In the transit zone, augmenting the P-3s, the DASH-8s and 
the U.S. Coast Guard C-130's--and clearly, with the large 
amounts of drug traffic we are seeing with these self-propelled 
semi-submersibles, we clearly need more surveillance capability 
in the transit zone.
    So we conducted in the month of March a 3-week 
demonstration using aircraft prototype Predator-B with the 
developmental maritime radar on it, and we are proposing with 
the Coast Guard. We are having a joint requirements summit this 
summer in Miami.
    From that, if our requirements for a variant are aligned--
and we think that they will be, up for really the commandant 
and the Coast Guard to speak for themselves--we have money in 
hand in the 2009 budget and a plan to buy an additional system, 
and that aircraft would be the prototype to develop a joint 
maritime aircraft for us and the U.S. Coast Guard to operate 
simultaneously.
    We have this year moved into flying through the satellite 
infrastructure, realizing that a couple of years ago our 
aircraft were flown line-of-sight. Today, we have procured two 
KU-band satellite systems with the control systems, and one is 
deployed to the AMOC in Riverside, California, and one is 
currently deployed in Sierra Vista.
    From those two control sets, we can fly our six aircraft 
literally anywhere in the world. Clearly, our mission is in the 
continental United States and in the transit zone, but we will 
be able to fly missions anywhere in the country from those 
remote sites.
    In fact, during our maritime demonstration a couple of 
months ago, with the test team and two UAVs deployed to Florida 
at Tyndall Air Force Base in the Gulf, and three aircraft 
remaining in Sierra Vista, the test team and A&M assets flew 
the mission in Arizona from Florida simultaneously with the 
test team and other air agents in Arizona flying the mission in 
Key West, Florida, from Arizona.
    These systems can fly 35 hours. They carry EO optics. They 
carry forward-looking infrared. They carry Synthetic Aperture 
Radar and the Lanbury maritime surveillance radars with the AIF 
tracking system in the maritime domain. They carry laser 
designators, and they carry all the configuration to fly in the 
national airspace. This is indeed a very unique asset that is 
going to pay a big dividend.
    I was talking to the Congressman earlier about North 
Dakota--why would we go to North Dakota?--and potential 
concerns the Canadians might have. North Dakota is a good 
place, not because it is perhaps the highest for that area, but 
because of the remoteness.
    Governor Hogan supports it. Both of the senators from that 
State support. You talk to the aviators in that State, and they 
are supportive. There are wide ranges of remote area with a lot 
of areas where we really honestly don't know what is going on.
    A North Dakota deployment is an opportunity to learn more 
about what these systems can do. They can fly in these remote 
areas for extended periods of time, doing very area risky 
things for manned aviation.
    They offer a unique local law enforcement aid, or 
humanitarian. You may recall last year or the year before when 
the people were lost in the mountains in Washington State. You 
could put this aircraft with a server sensor on station for 30 
hours, looking for something. Or think about somebody in the 
water somewhere.
    So this is a tremendous technology push that has kind of 
been going on behind the scenes, while we are still evolving. 
By the end of this year, the sixth operational aircraft in two 
co-located sites, and a full complement of Federal agents to 
fly these things--this will be a very unique asset for the 
border security mission.
    Last year for the stand over North Dakota, we actually 
partnered with the Coast Guard to take one of our assets, box 
it up and transport it on real time with U.S. Coast Guard C-
130's to North Dakota with a control set.
    The plan was that today we have an agile Falcon capability 
within Department of Homeland Security, that if there was an 
issue somewhere in the country--natural or terrorist-related--
today we could fly one of our aircraft and have the Coast Guard 
C-130 move a control set and fly overhead missions anywhere in 
the continental United States, same day with 30 hours overhead 
coverage from this vehicle, supporting assets on the ground.
    Thinking about Katrina and other type scenarios, this is 
clearly a capability you would like to have. So there has not 
been a lot of talk about it. The secretary has been out and 
looked at these things. We had the president out in Yuma last 
year to take a look at these things.
    I think, Congressman, you have been out there.
    I know that you have, too.
    It is a great opportunity, and I would encourage members of 
this committee to come out to Sierra Vista or in your next 
visit to the AMOC to observe real time operations. It is a very 
important asset.
    Ms. Sanchez. Thank you, General.
    My colleague from Indiana has one quick question before I 
gavel this over.
    Mr. Souder. We all have time pressures here, and we 
appreciate how long you have been here. This is just two quick 
yes and no, and if you want to submit additional for the 
record, for Chief Winkowski and Chief Aguilar.
    Do you have the legal ability now in these tough--you are 
having people who don't want to stay there as long, or more 
turnover--do you have the ability to pay bonuses to get hard-
to-cover sites?
    Mr. Winkowski. Yes, we have the ability to issue some 
bonuses, pay off college loans, things of that nature.
    Mr. Souder. Chief Aguilar.
    Mr. Aguilar. There are some incentives there, yes.
    Mr. Souder. So you answered my second one, which is you are 
using them, because that is what I would think the private 
sector would do--also for the shifts. If you are having trouble 
getting 12 to 8, then you pay a little bonus on the 12 to 8.
    I also know in remote locations, you are looking at going 
four to three on some days. But we need some creative ways to 
look at this, because it is obviously a structural problem. If 
there are any things that we need to do, let us know.
    Mr. Aguilar. I appreciate that.
    Ms. Sanchez. Good. I appreciate you gentlemen before us 
giving your testimony. Thank you so much. I am sure there will 
be more questions, especially from the Members who were not 
able to attend today and will submit those in writing to you, 
and hope that you will get back to us in a rather quick manner 
with the answers to that.
    We thank you.
    The subcommittee is adjourned.
    [Whereupon, at 2:32 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
